<html>
<title> - IRAQ AFTER MOSUL</title>
<body><pre>[Senate Hearing 115-808]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-808

                            IRAQ AFTER MOSUL

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 28, 2017

                               __________


       Printed for the use of the Committee on Foreign Relations


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-419 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------

                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2


Lang, Hardin, Senior Fellow, Center for American Progress, 
  Washington, DC.................................................     4
    Prepared statement...........................................     6


Knights, Michael, Ph.D., Lafer Fellow, The Washington Institute, 
  Boston, MA.....................................................    10
    Prepared statement...........................................    12


                             (iii)        

 
                            IRAQ AFTER MOSUL

                              ----------                              


                       TUESDAY, FEBRUARY 28, 2017

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Johnson, Flake, 
Gardner, Young, Paul, Cardin, Menendez, Shaheen, Coons, Murphy, 
Kaine, Markey, Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. The Foreign Relations Committee will come to 
order. I know we normally start exactly on time. I was told one 
of our witnesses was stuck in security and not to show up until 
now, so I apologize to any of you who got here exactly on time.
    Which one of you was stuck, by the way?
    Dr. Knights. I have to own up.
    The Chairman. Okay. Well, I am glad you made it through, 
and I am glad--what was that? Yes, very good.
    So the committee will come to order. I thank all of you for 
being here.
    I want to thank our witnesses for testifying today. We 
appreciate your willingness to come before this committee.
    I spent part of last week in Iraq, and I think it is quite 
clear that ISIS will soon lose all of its territory in Iraq. I 
think we are well on the way to making that happen.
    As we sit here, Iraqis are returning to their recently 
liberated homes in eastern Mosul and security forces are 
fighting through western Mosul. I think it is pretty incredible 
to understand what ISIS is doing to booby-trap these homes as 
they go back, with bombs under their mattresses, behind the 
refrigerator doors. It is a pretty unbelievable situation.
    It is worth commending the work the Iraqi security forces 
and the Kurdish Peshmerga have done in Iraq. American support 
has been crucial, but the Iraqis are liberating their own 
country. Their success is what brings us to the topic of 
today's hearing, what happens after ISIS.
    There is reason for a degree of optimism in Iraq. In many 
ways, the unthinkable horrors of ISIS have unified Iraq against 
a common enemy.
    I spent time in an IDP camp, and I know many of you have 
done the same thing, and met with Iraqis and with many 
different ethnicities supporting and relying upon each other, 
which was great to see.
    But the same underlying problems that contributed to the 
success of ISIS still remain, and they will remain after the 
kinetic activity is underway and the re-stabilizing completes.
    Prime Minister Abadi recognizes the need for 
decentralization, political reform, and control of the 
militias, but he has had trouble implementing solutions, and I 
think that trouble is going to continue. I know there is an 
election coming up in 2018, and my sense is many of the same 
issues that created this will continue.
    The Shia militia are an enduring and existential problem 
for Iraq as they attempt to turn battlefield success into 
political success. Candidly, we are setting the precursor for, 
in some ways, a Hezbollah-like entity in Iraq, just like we 
have in Lebanon right now.
    In many ways, Iran appears to be supportive of U.S. efforts 
to defeat ISIS, but I think we are all waiting for the day when 
our interests in Iraq no longer align with theirs and Iranian-
supported militias attack American forces. I traveled to 
Lebanon after Iraq, and the parallels between Hezbollah and the 
Shia militias in Iraq are hard to miss.
    With Iraqi elections coming in 2018, I think the big 
question is whether Iraq can unify behind their effort to rid 
the country of ISIS and finally move forward politically. Or, 
in a different scenario, could the underlying and unaddressed 
sectarian tensions in Iraq provide the background for an 
Iranian-backed militia leader to become prime minister? I think 
that is not out of the question.
    For us, I think the questions focus on what steps we can 
take to ensure Iraq has the best possible chance of success. 
Part of that is a longer term security commitment to Iraq. 
Another part is the longer term political commitment.
    I hope both of you can help us remember the lessons from 
the past and recommend what steps we should take going forward.
    And with that, I would like to thank you again for 
appearing before the committee and turn to my good friend and 
ranking member, Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Mr. Chairman, first, thank you for making 
the effort to visit the region, particularly the countries that 
you visited that are very important to our campaign against 
ISIS, and we look forward to you sharing that information with 
the members of this committee.
    During the recess, I had a chance to visit Mexico with 
Senators Merkley and Markey--we have to put you in different 
seats--with Markey and Merkley. And we had a chance to see 
firsthand some of the issues concerning that relationship, so 
it was, I think, a worthwhile period for us to get some on-the-
ground information.
    And I thank you for conducting this hearing. We have 
invested a great deal in Iraq. And as we are sitting here, 
Iraqi forces and police, Kurdish Peshmerga and Sunni tribal 
fighters, and an assortment of other fighters have entered the 
next phase of the Mosul campaign.
    Having secured the part of the city east of the Tigris, 
these forces enabled by U.S. training, weapons, intelligence, 
combat support, and coalition air campaigns have entered 
western Mosul, a critical stage in a month-long campaign to 
push ISIS out of its capital in Iraq.
    Secretary Mattis has delivered to the President the plan to 
defeat ISIS, and I know we are all looking forward to that 
information being shared with us, so that we are all on the 
same page as to how we can defeat ISIS.
    I must tell you, the Obama administration strategy of 
working by, with, and through Iraqi and Kurdish partners on the 
ground in Iraq to defeat ISIS is working, and we all hope that 
the Trump administration will be able to declare victory in our 
campaign to defeat ISIS.
    We know that, in part, that will be thanks to the work of 
the previous administration's sound strategy of assembling an 
international coalition to carry out an air war, standing up 
significant programs to train and equip local forces, and 
insisting on accountability and inclusive local leadership.
    No military campaign against ISIS will be successful in the 
long term if U.S. forces do the fighting. Iraqis need to own 
this fight, and the United States needs to support Iraqis in 
reclaiming their country and then rebuilding it. This is the 
only way to prevent the next ISIS.
    Moreover, a stable, self-reliant Iraq is the only way to 
push back on the Iranian interference in Iraq. Iraq cannot 
become another fertile territory for expansion of Iran's 
nefarious activities or a land corridor linking Tehran to 
Damascus to Lebanese Hezbollah.
    However, ISIS's pending defeat in Iraq does not mean that 
the Iraqis or we are prepared for the next phase of the fight. 
I spoke of my concern last year when we had a hearing and 
reiterate it again: the risk of a catastrophic success if we 
declare victory when ISIS is defeated on the battlefield. The 
war in Iraq will not be over because the underlying causes of 
instability in Iraq remain.
    Communities are shattered. People are traumatized. 
Displaced people cannot return to cities riddled with ISIS 
mines and no job prospects, and Iran-backed militias operate 
with impunity. There is no social contract in Iraq between the 
government and the people, no trust and no confidence.
    The government in Baghdad must demonstrate that it can be a 
government for all Iraqis regardless of ethnicity, sect, or 
geography. This means real power-sharing agreements with the 
Kurdistan regional government, decentralized governance that 
empowers Iraqi Sunni communities, and a national program of 
reconciliation, and reform of Iraqi security forces.
    If the Iraqi leaders are willing to move in a responsible 
direction, the United States should be ready to support them.
    A real plan to defeat ISIS in Iraq requires the Trump 
administration to devise, resource, and implement a reasonable, 
long-term policy for U.S.-Iraq partnership.
    But here is the challenge. We heard just yesterday--we got 
a glimpse of what the Trump budget will look like, and I was 
extremely disappointed at least by the reports that the 
national security budget part and the Secretary of State is 
being cut. How are we able to be a partner if we are reducing 
our capacity to help in regards to development assistance and 
diplomacy?
    Also, we hear from the Trump administration inflammatory 
statements like take Iraq oil, or dangerous statements like 
Muslim bans, which include Iraq, and are targeted at the very 
Iraqis that partnered with us to defeat ISIS. We tell them that 
they are not welcome in our country.
    The President's executive order to the Pentagon asked for 
recommended changes in the rules of engagement. That also could 
concern the Iraqis, because that, to me, is meaning are we 
going to make more civilian casualties a price for getting 
ISIS?
    So on one side, we are saying we want to partner with the 
Iraqis. On the other side, we talk about taking their oil, they 
are not welcome in our country, and there may be more civilian 
casualties in the way that we conduct our campaign. That is not 
a way that I think is conducive to setting up a partnership of 
trust that becomes critically important for defeating ISIS.
    So I look forward to our discussion today with our 
witnesses as we try to come together, and I hope the last phase 
of defeating ISIS in Iraq and then working from what we have 
learned in that campaign to go after ISIS wherever we find them 
anywhere in the world.
    The Chairman. Thank you, sir.
    We will turn to our outstanding witnesses.
    Our first witness is Dr. Michael Knights from the 
Washington Institute for Near East Policy.
    Thank you so much for being here.
    Our second witness is Mr. Hardin Lang from the Center for 
American Progress.
    I thank you both that we would ask you to summarize your 
comments. Without objection, we will enter your written 
testimony into the record. If you could take about 5 minutes to 
summarize, we look forward to questions.
    Again, thanks for coming through our security apparatus and 
taking time to be here today.
    And if you would start, Dr. Knights, we would appreciate 
it.

    STATEMENT OF MICHAEL KNIGHTS, PH.D., LAFER FELLOW, THE 
                WASHINGTON INSTITUTE, BOSTON, MA

    Dr. Knights. Thanks very much, and apologies for near 
lateness. The security was doing a great job today, especially 
with suspicious sounding--foreign sounding----
    The Chairman. The accent. I realized what happened, yes.
    Dr. Knights. Yes, exactly.
    So, Chairman Corker, Ranking Member Cardin, and the 
distinguished committee members, thank you for inviting me to 
testify at today's hearing on Mosul and the campaign against 
ISIS.
    I am particularly proud to be appearing before you for the 
first time as a new American citizen, an immigrant, and an 
adopted son of the Commonwealth of Massachusetts.
    At heart, we are here today because we know Iraq is 
important. ISIS knows Iraq is important. It has from the very 
beginning. Iraq is the center of ISIS's world and will continue 
to be so.
    Iran also knows that Iraq is important. The regime in 
Tehran, the world's largest state sponsor of terrorism, has an 
ambitious agenda inside Iraq, seeking to establish Iranian-
backed Shia militias as the protectors of the Shia community in 
Iraq.
    We in this room know that Iraq is important as well, and 
that America's role in Iraq is equally important. Just 2.5 
years after we withdrew from Iraq, Mosul fell and ISIS took a 
third of Iraq, and that is not coincidence.
    Now the U.S. is back, and we are some months away from the 
full clearance of Mosul. But given the dramatic comeback staged 
by ISIS and its predecessors in Mosul in 2004, in 2007, and in 
2014, one can justifiably ask what will stop ISIS or a similar 
movement from laying low, regenerating, and wiping out the 
costly gains of the current war? What can we learn from 
history?
    The written testimony provides detailed summary of the 
findings from my late 2016 report called, ``How to Secure 
Mosul: Lessons from 2008 to 2014,'' which draws on some of my 
own research in Mosul back then and work in Ninawa Province 
since then.
    But suffice to say, we know in great detail what went wrong 
in Mosul and how to rebuild Iraqi security forces and community 
relations to lessen the risk of ISIS's resurgence. The trick is 
coaxing and supporting the Iraqi Government to take these right 
steps under the difficult political circumstances right now and 
going into the 2018 elections.
    I really want to focus on the key takeaway, which is that 
the mission to destroy ISIS's military and terrorist 
capabilities in Iraq must continue under a strong U.S. lead and 
under a multinational framework similar to today's Combined 
Joint Task Force Operation Inherent Resolve. It could be a 
NATO-led mission but CJTF-IR is bigger than NATO right now and 
involves a lot of non-NATO contributions. The U.S. lead is an 
important part.
    So I want to focus on a couple things. Back in the old days 
when you would be in Iraq, you know, you had Americans and you 
had some Brits. Now when you go to the coalition command 
centers, you have the Australians, New Zealanders, Italians, 
French, British, Germans, Spanish, Canadians all making a very 
significant contribution. Bringing the world's largest 
economies and largest security assistance partners together 
strengthens our hand as we try to get the Iraqi Government to 
undertake political reconciliation and consensus approaches to 
security in the liberated areas.
    It also ensures a good degree of burden-sharing with our 
international partners. Some of them can do things we cannot, 
like the Italians providing their specialist training to the 
Iraqi federal police, something that we would find difficult to 
do.
    And also, many of these coalition partners are the very 
states that Iran is depending upon to be its major foreign 
investors. And to some extent, this makes it more difficult for 
Tehran and its militia proxies in Iraq to disrupt the 
involvement of the U.S.-led coalition or to threaten U.S. 
trainers.
    We have all the mechanisms in place to continue security 
cooperation in Iraq right now: the Combined Joint Special 
Operations Task Force, enhanced intelligence coordination, U.S. 
presence in the major Iraqi headquarters, and a sturdy train 
and equip effort. But we are about to shift now the mission 
into what is really the difficult part.
    Fighting them as an army was the easy part. Now we are 
going to pursue the small ISIS cells into the ungoverned spaces 
of Iraq--mountains, deserts, river deltas, even the refugee 
camps, prisons, juvenile detention centers, and broken homes. 
These are the next places where we will be pursuing ISIS, and 
we need to do that through a rigid program with intelligence 
support to the Iraqi state, in particular focusing on the 
organized crime background, fundraising background, of ISIS, 
because that tends to be how ISIS comes back in places like 
Mosul, and preventing mass casualty attacks that stoke 
sectarian tensions in Baghdad.
    Likewise, we need to bulk out the security forces because 
they are just too small right now to cover all the missions, 
all the borders, all the areas, like the oil-rich hub of Basra, 
which is currently being slowly taken over by militia control. 
And we also need to advise them on counterinsurgency, policing, 
and criminal justice reforms.
    So closing with an analogy, the United States in Iraq is 
like an exhausted man who has pushed a large boulder up a hill 
and he is nearing the crest. It will be tempting to stop 
pushing and hope that the boulder's momentum might carry it 
over the top. But the lesson of 2011 to 2014 is that if we stop 
pushing, the boulder will grind to a halt and it will roll 
right back over us.
    We have a chance, a very real opportunity, a second chance, 
a do-over. With the right formula, I think for thrifty U.S. 
involvement in Iraq, we have a very experienced national 
security team with masses of hard-won Iraq experience. We have 
a strong international coalition to share the load with us.
    Now what we need to do is what Americans do best: Stick at 
it and make it work.
    As Churchill noted, this is not the end or the beginning of 
the end, but it might be the end of the beginning. I personally 
have never had more confidence that the U.S.-led multinational 
coalition can work with Iraq's moderate leaders and security 
forces, and I think that our mission to defeat ISIS's military 
power and prevent its regrowth in Iraq is achievable.
    So thank you very much for the opportunity to share some 
ideas with you today.
    [The prepared statement of Dr. Knights follows:]

                 Prepared Statement of Michael Knights

    Chairman Corker, Ranking Member Cardin, and the distinguished 
committee members: Thank you for inviting me to testify at today's 
hearing on Mosul and the campaign against the Islamic State of Iraq and 
the Levant (ISIL). I'm particularly proud to be appearing before you 
for the first time as a new American citizen, an immigrant and an 
adopted son of the Commonwealth of Massachusetts.
    At heart, we're here today because Iraq is important.
    ISIL has known this all along. Their leader Abu Bakr al-Baghdadi is 
an Iraqi. Their main base is Iraq and may remain in Iraq in the future. 
The territory of Iraq is connected to six of the Middle East's major 
states and represents a keystone that buttresses the region's 
geography. The population of Iraq incudes the largest body of Sunni 
Arabs in the world living under a Shia-led government. As ISIL 
degenerates back into a terrorist group unable to hold major towns or 
cities it will view Iraq as a safe haven and later as fertile ground 
for a comeback.
    Iran also knows that Iraq is important. The regime in the Tehran, 
the world's largest state sponsor of terrorism, has an ambitious agenda 
inside Iraq. Tehran seeks to exploit the justifiable fear of ISIL that 
is felt by Iraqi Shia majority in Iraq. Iran is trying to convince the 
Iraqi Shia that they are alone in their fight against ISIL, and that 
only Iranian-backed Shia militias can protect Iraq from ISIL's 
resurgence in the future.
    We in this room know Iraq is important, and that America's role in 
Iraq is equally important. Just two and a half years after the U.S. 
military left the country, ISIL took over Mosul and a third of Iraq. 
ISIL's success and the complete and hasty withdrawal of U.S. military 
support to Iraq was no coincidence.
    Three years ago I was testifying to Congress on the rise of the 
Islamic State of Iraq (ISI), something I had been warning about since 
2011 \1\ when the movement rebooted stronger after we killed their 
leaders the year before.
    Back in 2013 it was hard to focus attention on Iraq, and it will be 
hard to focus attention on Iraq in a year's time, so we need to make 
smart choices now while we are still keenly focused on the threats to 
U.S. interests that are present in Iraq. These threats include not only 
ISIL but also Shia militias groups that parasitically exploit ISIL's 
presence and which make up part of the Iranian threat network discussed 
in this committee earlier this month.\2\
    I've been focused on Iraq my whole career. I'm starting to see the 
cyclical nature of our policies.
    We wake up to the nature of an urgent threat that has been allowed 
to grow unchecked. We make mistakes, then we do the right thing, but 
then we lose interest. The cycle starts again.
    This is very clear in the case of Mosul and fight against ISIL and 
its forerunners. In early 2017, the Iraqi security forces are likely to 
liberate Mosul from ISIL control. But given the dramatic comebacks 
staged by ISIL and its predecessors in the city in 2004, 2007, and 
2014, one can justifiably ask what will stop ISIL or a similar movement 
from lying low, regenerating, and wiping away the costly gains of the 
current war. What can we learn from history?
               stabilizing mosul: lessons from 2008-2014
    In a recent Washington Institute policy paper on Mosul,\3\ I took a 
close look at the underexplored issue of security arrangements for the 
city after its liberation, in particular how security forces should be 
structured and controlled to prevent an ISIL recurrence. The paper 
draws on my interviews with Mosul security forces in the pre-2011 
period, and extensive travel in Ninawa governorate both before and 
after ISIL.
    Though ``big picture'' political deals over Mosul's future may 
ultimately be decisive, the first priority of the Iraqi-international 
coalition is to secure Mosul in very practical ways.
    As John Paul Vann, a U.S. military advisor in Vietnam, noted 
decades ago: ``Security may be ten percent of the problem, or it may be 
ninety percent, but whichever it is, it's the first ten percent or the 
first ninety percent. Without security, nothing else we do will last.'' 
\4\
    We can learn a lot about the vital next steps in Mosul if we look 
at two distinct periods of Mosul's recent history.

   Partial success when the U.S. paid close attention. In 2007-2011, 
        the U.S-backed Iraqi security forces (ISF) achieved significant 
        success, reducing security incidents in the city from a high 
        point of 666 per month in the first quarter of 2008 to an 
        average of 32 incidents in the first quarter of 2011.\5\

   Catastrophic failure when the U.S. turned away. In 2011-2014, the 
        trend reversed, until monthly security incidents had risen to 
        an average of 297 in the first quarter of 2014. Shortly 
        afterwards ISIL seized Mosul and a third of Iraq in June 2014.
       drivers of successful stabilization in mosul in 2007-2011
    Explanations for both the 2007-11 successes and the failures of 
2011-14 are easily identified. In the earlier span, Baghdad committed 
to Mosul's stabilization and Iraq's prime minister (then Nouri al-
Maliki) focused on the issue, authorizing compromises such as partial 
amnesty and a reopening of security recruitment to former regime 
officers. Elections produced a provincial council and governor with 
whom urban Sunni Arab Moslawis, as Mosul residents are known, could 
identify.
    While the U.S. military was embedded in Mosul until 2011, the ISF 
achieved a basic ``unity of command,'' and key command positions were 
allocated to respected officers, including Sunni Arab Moslawis, in part 
as a result of U.S. urging. Available government troops in Mosul were 
increased, including through significant local recruitment of Moslawis 
from poorer Sunni Arab neighborhoods.
      the roots of failed stabilization in mosul during 2011-2014
    During the 2011-14 stretch, by contrast, ISIL's victory was assured 
by chronically deficient unity of effort and unity of command among 
Iraqi government, Kurdish, and Ninawa factions. Baghdad and the 
Kurdish-backed Ninawa provincial leaders worked at cross-proposes 
throughout the 3-year period.
    Indeed, the military ``command climate'' set by Baghdad's 
politically appointed commanders resulted in security forces conducting 
operations intended to humiliate and punish the predominately Sunni 
Arab Moslawis. From the outset of Iraqi prime minister Nouri al-
Maliki's second term in 2010, Baghdad tinkered with command and control 
in Mosul, undoing the reasonably depoliticized security structure that 
existed until that point. The constant shuffling of commanders 
destroyed the ISF's remaining cohesion.
    a rare second chance: the strategic opportunity in mosul in 2017
    Given the strategic opportunity posed by the future liberation of 
Mosul--an opportunity that may not come again--digesting and making use 
of these lessons is vitally important.
    Assuming neither Kurdish Peshmerga nor Shiite militias flood the 
city, an outcome the coalition seems to have prevented, Moslawis may 
initially be more open to working with the ISF, following two and a 
half years under ISIL, than at any point since 2003. But Mosul 
residents will also be closely watching their liberators for signs of a 
return to 2014, with its punitive measures, restrictive curfews, and 
the widespread specter of arrest.
    At the political level, Ninawa requires genuine pragmatic governing 
consensus, not just a shifting series of ``enemy of my enemy is my 
friend'' alliances. It is still early in the process but on this front 
the U.S.-led coalition has made a good start by bringing together 
Baghdad and the Kurds, plus the Ninawa provincial leadership for 
general dialogue.
    A compact among these factions should consist of simple ground 
rules for future political conduct. In such an arrangement, the 
provincial council and any security coordination committee must be a 
consensus-based decision-making body.
                 how to structure mosul security forces
    Likewise, the recruitment and management of local government bodies 
and police should formulaically reflect the pre-ISIL composition of the 
city's population. Major recruitment of urban locals to the police 
force, including returning minorities, is a priority.
    At the operational level, requirements include stable 
nonpoliticized command appointments and much stronger unity and 
coordination among federal Iraqi, Kurdish, and local Ninawa security 
forces. The Ninawa Operations Command (NiOC), a three-star joint 
headquarters active since 2008, remains the most appropriate command-
and-control architecture, but the concept needs to be implemented much 
more effectively than in the pre-2014 years.
    Just as the U.S.-led coalition has successfully worked since 2014 
to encourage Iraqi promotion to high command of talented Counter-
Terrorism Service officers, the coalition should now use its influence 
and advisors to optimize NiOC's leadership and setup.
    Such efforts should include the establishment of key coordination 
bodies on overall security policy, community relations, intelligence 
sharing, and checkpoint placement. To aid coordination, Iraq should be 
encouraged to locate NiOC as close as possible to the Ninawa Provincial 
Council and police headquarters, both in Mosul city.
                how to prevent isil resurgence in mosul
    The 2007-2014 period provides clear lessons regarding some of the 
first steps that Iraq and the coalition should take in Mosul:

   Spread reconstruction and economic aid to poorer urban districts. 
        For more than a decade, the city's reconstruction needs have 
        been unmet, and the coalition should encourage Iraq to target 
        reconstruction in the areas most likely to present havens for 
        ISIL and other militant actors. This means greater focus on the 
        poor Arab neighborhoods at the city's outer northwest, 
        southwest, and southeast edges. These areas were consistently 
        overlooked in the past and ISIL used them as incubators for its 
        previous recoveries, employing an economic ``class warfare'' 
        approach to recruit the poor.

   Don't overlook rural areas. Moreover, urban security must be linked 
        to stabilization of rural militant ``hotspots'' like Badush, 
        Ash Shura, and Tal Afar, from which a disproportionate number 
        of ISIL fighters have come. ISIL's takeover of Mosul in 2014 
        was partly a rural versus urban backlash. This social schism 
        needs to be minimized to deny ISIL space to re-grow.

   Treat ISIL as a major organized crime threat. Iraq needs to help 
        develop strong capabilities in countering organized crime and 
        for local governments in fighting corruption, given that ISIL 
        will first reemerge in Mosul's criminal underbelly, as it did 
        after the decimation of its predecessor, the Islamic State of 
        Iraq, in 2010. The resurgence of ISIL in Mosul will either 
        success or fail in the markets, the offices and the government 
        departments where the terrorists will try to threaten, kidnap 
        and kill their way back to prominence.
      the future role of the u.s.-led coalition in mosul and iraq
    The U.S.-led coalition can play a critical positive role in 
encouraging Iraq to place good leaders in charge of Ninawa security 
policies, support those leaders, and build a combined effort to prevent 
ISIL resurgence.
    First, the U.S.-led coalition needs to itself act in a coordinated 
manner. The current coalition against the Islamic State is far more 
useful than a unilateral U.S. mission, drawing on key contributors such 
as Britain, Australia and New Zealand, Italy, France, Germany, Spain, 
and Canada, to name just a handful.
    Such an alliance, including some of the world's largest economies 
and security-assistance partners, can help amplify diplomatic pressure 
in stressing the need for consensus approaches to Ninawa in discussions 
in Mosul, Erbil, Baghdad, Ankara, and even Tehran.
    The alliance also ensures the fair burden sharing between the 
United States and other partners, many of whom are making very 
substantive efforts to do things that the U.S. cannot easily do (for 
instance, Italian Carabinieri support to Iraq's Federal Police).
     extending combined joint task force-operation inherent resolve
    If the mandate of Combined Joint Task Force-Operation Inherent 
Resolve (CJTF-OIR) were extended, the coalition's leverage could be 
expanded beyond the liberation of Mosul. The coalition should commit 
the United States to at least three further years of extraordinary 
security cooperation, subject to review and extension.
    The aim would be to provide a bridge for this enhanced security-
cooperation relationship into the new Iraqi government in 2018-22.
    The message should be clear: the United States will not disengage 
from this fight after Mosul is liberated. In contrast to the hasty 
departure in 2009-11, U.S. officials would be committing to an 
intensified security-cooperation relationship with Iraq through the 
multinational framework of CJTF-OIR for the mid-term, in order to 
permanently defeat IS in Iraq.
    Such an effort should entail ongoing contribution to a Combined 
Joint Special Operations Task Force-Iraq (CJSOFT-I), enhanced 
intelligence cooperation, continued U.S. presence in the Combined Joint 
Operations Command (CJOC), and a sturdy Build Partner Capacity (BPC) 
effort.
             what the u.s.-led coalition should do in mosul
    The above steps could greatly increase U.S. and coalition leverage 
for Ninawa's long-term stabilization. For instance, the coalition could 
stay directly engaged in the development of Ninawa-based security 
forces.
    If the coalition continues to train and equip Iraqi army forces at 
the large bases near Baghdad, Taji and Besmaya, then Western 
governments will be better positioned to ensure Moslawi and Ninawa 
recruits are brought into the army in appropriate numbers, a key 
reconciliation metric. Similarly, the Italian Carabinieri training for 
the Iraqi Federal Police allows monitoring and influence over the 
development of new locally recruited Federal Police forces for Ninawa.
    Specialized training initiatives could not only sustain coalition 
leverage but also directly assist in Ninawa's stabilization. Examples 
might include

   special forces and intelligence training for counterterrorism and 
        counter-organized-crime operations;

   development of a ``Counterinsurgency Center of Excellence for the 
        Iraqi Army and Federal Police''; and

   development of border security and logistical capacities to support 
        operations in ungoverned spaces far from existing logistical 
        infrastructure, such as the Ninawa-Syria border.
            keep paying attention to mosul, ninawa and iraq
    The coalition's attention is simultaneously the cheapest and the 
most important investment that can be made in Mosul. Keeping the 
Baghdad, Kurdistan Region, and Ninawa leaderships focused on 
stabilization, and keeping them communicating and coordinating, is the 
greatest contribution the coalition can make.

----------------
Notes

    \1\ In early 2012 I assessed that the resurgence of Al-Qaeda in 
Iraq/Islamic State of Iraq had been underway since the spring of 2011. 
See Michael Knights, Back with a vengeance: Al-Qaeda in Iraq rebounds, 
in IHS Defense, Security & Risk Consulting, February 24, 2012.
    \2\ Defeating the Iranian Threat Network: Options for Countering 
Iranian Proxies, Senate Foreign Relations Committee, December 6, 2016.
    \3\ Michael Knights, How to Secure Mosul: Lessons from 2008-2014 
(Washington DC: Washington Institute for Near East Policy, 2016).
    \4\ Quoted in Neil Sheehan, A Bright Shining Lie: John Paul Vann 
and America in Vietnam (New York: Random House, 1988), p. 67.
    \5\ All incident data is drawn from the author's geolocated 
Significant Action (SIGACT) data set, which brings together 
declassified coalition SIGACT data plus private-security-company and 
open-source SIGACT data used to supplement and extend the data set as 
coalition incident collection degraded in 2009-11 and disappeared in 
2012-14.

    The Chairman. Thank you. Thank you very much for that 
testimony.
    Mr. Lang?

 STATEMENT OF HARDIN LANG, SENIOR FELLOW, CENTER FOR AMERICAN 
                    PROGRESS, WASHINGTON, DC

    Mr. Lang. Mr. Chairman, Mr. Ranking Member, members of the 
committee, thank you for the honor and the opportunity to 
discuss the situation in Iraq today.
    Indeed, we stand at an inflection point in our policy in 
that country. While much of the military task will soon be 
accomplished, what comes next will be more complex to help the 
Iraqis recover and reconcile.
    As we enter this phase, there are four urgent priorities 
and two enduring challenges the U.S. will face, and you, sirs, 
have both touched on many of those in your opening statements.
    The first urgent priority is the humanitarian situation. 
The number of those displaced by the Mosul operation stands 
roughly at 160,000, far less than many had feared. But over 
700,000 civilians remain trapped in areas controlled by ISIS, 
and the U.N. estimates that a quarter million could flee.
    The ISF needs to secure aid distribution and evacuation 
routes for western Mosul, and donors will need to come up with 
more assistance. The U.N. is likely to need another $570 
million to cover the next phase of the operation.
    The second priority is governance in a liberated Mosul. 
This was a top concern when I was in northern Iraq with 
everyone I spoke with last year. Given the large number of 
Iraqi players involved in Mosul's liberation, some of the 
clashes along ethno-sectarian lines are probable when the 
threat of ISIS recedes and various groups began to vie for 
control. An arrangement is needed to deconflict between these 
groups and reassure Mosul's population.
    One option would be to declare a transitional period and 
appoint a high-level committee to oversee the administration of 
Mosul and the surrounding areas. The committee could include 
representatives from Baghdad and Erbil, and a senior U.S. or 
coalition diplomat to help broker.
    The third priority is stabilization. Coalition diplomats 
point to the return of displaced persons as a key indicator a 
liberated area or community has stabilized. But only one-third 
of those who have fled the fighting have returned home, so we 
are still looking at over 3 million who remain displaced. In 
short, stabilization lags dangerously behind the military 
campaign.
    To date, the U.N. has led on stabilization. And while its 
efforts have been commendable, the counter-ISIS coalition 
should bolster its role, and the U.S. could deploy additional 
civilian contingency assets to support the U.N. effort.
    The fourth priority is to reach an agreement with Iraqis 
about the residual U.S. or coalition military mission. The U.S. 
has more than 5,000 troops in Iraq. With their support, Iraqi 
and Kurdish forces have made impressive gains against ISIS, but 
these forces will need help to protect these gains for some 
time to come.
    The follow-on mission should continue to train and equip 
our partners, and should maintain a presence in both Anbar and 
Ninewa to reassure the Sunni Arab communities that they will 
not be abandoned.
    Unfortunately, Iraqi leaders are already under pressure to 
reduce the U.S. presence. At the moment, we still retain a 
tremendous amount of leverage inside of Iraq because of our 
military contribution, and we need to start talking to the 
Iraqis now about what comes next while we retain that leverage.
    Looking beyond the immediate, a central challenge, an 
enduring challenge, will remain national reconciliation. Sunni 
Arab communities must be offered a tangible stake in the future 
of Iraq. To date, the U.S. strategy has been to nurture 
reconciliation through support for devolution of authority, 
recruitment of Sunni Arabs into the security forces, and 
legislation like the amnesty law that passed last August.
    The U.S. should also encourage local attempts at 
reconciliation. Only 3 percent of donor money for stabilization 
has actually been spent on reconciliation initiatives, so there 
is clearly room to grow.
    For their part, the Kurds have been amongst the most 
steadfast and effective partners against ISIS, and they will 
want to be compensated for their sacrifice at a time that 
aspirations for independence are running high.
    A second enduring challenge is something that everyone has 
touched on so far, and that would be the Shia militia. 
Estimates of total Shia militia in Iraq vary from 100,000 to 
120,000 forces at this stage. Most are organized under the 
banner of the Popular Mobilization Front and many are backed by 
Iran.
    The Iraqi Government has passed legislation making the PMF 
an official component of the Iraq security forces, but the 
implementation process remains unclear. One option includes 
turning the PMF into a reservist force. Another is to fully 
integrate them into the ISF.
    Now the U.S. could support either of these options for 
units that are not directly backed by Iran, but those that are 
backed by Iran will continue to pose a significant challenge, 
and we must be able to balance against them.
    In conclusion, I believe that the United States maintains a 
significant interest in the future of Iran. The U.S. has spent 
over $10 billion to fight ISIS in Iraq and Syria, and our goal 
should be to protect that investment and prevent the 
reemergence of a similar terrorist threat.
    We should also seek to balance Iran's influence inside Iraq 
by bolstering Iraqi sovereignty. None of this requires the U.S. 
to nation-build, but we need to maintain a pathway for 
sustainable engagement.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    [The prepared statement of Mr. Lang follows:]

                   Prepared Statement of Hardin Lang

    Mr. Chairman, Mr. Ranking Member, Members of the Committee, thank 
you for the honor and the opportunity to discuss the situation in Iraq. 
The battle to retake the country from ISIS is one of the most dynamic 
foreign policy challenges confronting the new administration. Iraqi and 
coalition forces have already liberated most of their country and are 
now engaged in a fierce fight to recapture the western half of Mosul.
    But major questions remain regarding what comes next. Indeed, we 
stand at an inflection point in our policy on Iraq. Much of the 
military task will soon be accomplished. The next phase will be more 
complicated--to help Iraqis recover, reconcile and seek solutions to 
what at its root has always been a political problem. As we enter this 
phase, I want to touch on four urgent priorities and two enduring 
challenges the U.S. will now face in Iraq.

    The four urgent priorities are:

    1) The humanitarian situation

    2) Post-liberation governance of Mosul

    3) Stabilization in liberated communities

    4) Negotiating a follow-on military mission

    The two enduring challenges include:

    1) National reconciliation

    2) The future of Shia militia in Iraq
                            why iraq matters
    First, let me be clear on one point. My remarks are premised on the 
assumption that the United States maintains a significant interest in 
the future of Iraq--one that merits continuing U.S. leadership and 
investment. As of last year, the U.S. had spent over $10 billion to 
combat the ISIS in Iraq and Syria and deployed over 5,000 troops in 
Iraq alone to support that effort.\1\ We made this investment because 
of the terrorist threat posed by ISIS to the United States and our 
allies. Once ISIS has been defeated militarily, a key objective should 
be to foster the degree of stability in Iraq necessary to prevent the 
reemergence of similar transnational terrorist threats. In this case, 
an ounce of prevention truly is worth a pound of cure.
    A second U.S. objective in Iraq should be to balance Iranian 
influence. The 2003 invasion of Iraq ended the U.S. policy of dual 
containment of Iraq and Iran. It is not possible to return to the 
status quo ante. Iran will maintain significant sway inside Iraq for 
the foreseeable future, however, we can take steps to reinforce Iraqi 
sovereignty and independence and minimize the opportunity for Iraq to 
disintegrate or serve as a proxy in the regional competition for power. 
Working with long-standing partners in the Middle East to ensure that 
we are developing regional support for efforts to reinforce Iraq's 
sovereignty is vital for long-term U.S. interests.
    None of this requires the U.S. to nation build or reconstruct Iraq, 
but it does mean that we should be prepared to protect the significant 
investment of the last two years through a continued military presence 
and targeted civilian assistance. We should share this burden by 
leveraging the resources of extensive membership of the counter-ISIS 
coalition and our partners in the region. This will only be possible if 
the U.S. remains engaged and willing to lead.
                         four urgent priorities
    1) The humanitarian situation: While the number of those displaced 
by the Mosul operation has not been as high as many feared, the 
humanitarian situation remains serious. To date, roughly 160,000 
civilians have been displaced due to fighting to retake the eastern 
half of Mosul and surrounding villages. Some 700,000-750,000 civilians 
remain trapped in areas still controlled by IS. The U.N. estimates that 
as many as 250,000 people could flee escalating fighting in the west of 
the city.\2\
    Two weeks ago, U.N. relief operations were temporarily paused to 
the liberated eastern half of Mosul because of a deterioration in the 
security situation. Significant shortages of drinking water remain a 
primary humanitarian concern in eastern Mosul. The U.N. has also 
announced that food, fuel, and other humanitarian supplies are unable 
to reach western Mosul and ongoing military operations have closed off 
possible access points for aid.
    More needs to be done to address the immediate humanitarian needs 
of those impacted by the fighting. First, the Iraqi Security Forces 
need to secure the distribution of aid in and provide evacuation routes 
from western Mosul as the offensive continues.\3\ Second, international 
coalition partners and other donors will need to increase their 
humanitarian assistance. The good news is that 97 percent of the July 
2016 Mosul Flash Appeal has been funded. But the U.N. estimates it will 
need another $570 million for the next phases of the Mosul 
operation.\4\

    2) Post-liberation governance of Mosul: Perhaps the biggest 
challenge facing a liberated Mosul will be governance. The plan to 
restore governance is to be led by the current Ninewa governor in 
exile. This mirrors the process in other liberated cities, but he is 
not from Mosul and has no indigenous powerbase. Former governor Najafi 
remains a controversial and possibly disruptive figure. The Government 
of Iraq and the Kurdistan Regional Government have discussed post-
liberation arrangements at length, but have not yet reached a shared 
understanding, and Turkey's presence has complicated the situation. The 
lack of an agreed plan creates incentives for those fighting to create 
facts on the ground from whence they can negotiate on the day after.
    The key will be to find an arrangement that gives the people of 
Mosul confidence, restores the relationship with the government in 
Baghdad and reassures the KRG that Kurdish equities will be protected. 
One option would be for the Iraqi government to announce a political 
transitional period lasting up to 18 months once combat operations have 
ceased. A high-level committee could then be established to support the 
governor and help oversee the administration of Mosul and surrounding 
areas during this period. That committee could include representatives 
from Baghdad and Erbil. A senior U.S. official--probably of 
Ambassadorial rank--should support the committee and help serve as a 
broker.

    3) Stabilization in liberated communities: ISIS has left much of 
Iraq in ruins. Iraqis returning home have found their communities 
destroyed. The Iraqi government is overwhelmed by the task of 
rebuilding in areas already liberated from ISIS. As Special Envoy Brett 
McGurk stated last year, ``Stabilizing areas after [ISIS] can be even 
more important than clearing areas from [ISIS].'' \5\ He's right: After 
the fighting stops, there will be a crucial window to begin 
humanitarian aid and establish some basic services and governance. 
Failure to do so risks squandering battlefield sacrifices.
    Coalition diplomats often point to the return of displaced people 
as the metric of success for stabilization. The total number of people 
displaced by the ISIS crisis grew to 3.3 million people in 2016 and now 
hovers at just over three million. While ISIS has lost over half its 
territory in Iraq, only one-third of those who fled their homes appear 
to have returned. This suggests that efforts to stabilize liberated 
areas lag dangerously behind the military campaign. To date, the U.N. 
has led on stabilization, and while its efforts have been commendable, 
the counter-ISIS coalition should bolster its role in this line of 
effort.
    The first step would be for counter-ISIS coalition to strengthen 
its leadership for stabilization efforts. Currently, the coalition 
working group in charge of stabilization has few responsibilities 
beyond information sharing. One option would be to appoint a Baghdad-
based coalition ambassador to serve as the civilian lead for 
stabilization on the ground. A coalition civilian lead could help 
integrate stabilization into coalition military campaign plans to 
ensure that there is a plan for the day after liberation.
    Second, the United States should lead by example in supporting 
stabilization. The administration should deploy civilian contingency 
assets like the State Department's Bureau for Conflict and 
Stabilization and USAID's Office of Transition Initiatives (OTI) to 
support U.N. efforts. OTI, in particular, has extensive experience 
working next to the military and through local authorities in conflict 
zones.

    4) Negotiating a follow-on military mission: Finally, the single 
most pressing decision will be whether to keep U.S. soldiers in the 
country for a follow-on mission. The U.S. military presence in Iraq has 
expanded incrementally since mid-2014, and now includes more than 5,000 
personnel at three air bases in Anbar and Ninewa and two Joint 
Operations Centers in Baghdad and Erbil.\6\ The overall mission has 
also expanded to include close air support, fire support, logistical 
assistance, high-value targeting, and embedded U.S. forces behind the 
frontlines.
    But even after Mosul has been liberated, Iraq will still require 
U.S. support to ensure enduring security. With help from the American-
led anti-ISIS coalition, the Iraqi security forces have made impressive 
gains against ISIS after suffering a breathtaking collapse in mid-2014. 
But Iraqi forces will need help to protect both their battlefield and 
organizational gains for some time to come. Unfortunately, negotiations 
over a U.S. follow-on force will take place at a time of declining 
American leverage. Iraqi leaders are already under pressure to reduce 
the U.S. military footprint. Prime Minister Al-Abadi has signaled his 
intent to do so immediately after the liberation of Mosul, so we need 
to start talking to the Iraqis now about the future of a U.S. military 
presence.
    A follow-on mission should continue to train and equip our 
partners--especially the Counter Terrorism Service. But the final troop 
number must carefully balance military requirements against political 
realities in Baghdad. Insistence on a large force with a broad mandate 
and expansive rules of engagement could trigger Iraqi political 
backlash. A force somewhere between 3,000 to 5,000 troops should be 
sufficient. The key will be to maintain the U.S. footprint in both 
Anbar and Ninewa to reassure Sunni Arab communities that they will not 
once again be abandoned. The timeline for agreement is short: Iraq's 
2018 elections could produce a prime minister less willing to cooperate 
with Washington.
                        two enduring challenges
    1) National reconciliation: Over the long term, the key to lasting 
victory over the Islamic State and stability in Iraq will be national 
reconciliation. We have learned the hard way that American troops 
cannot provide long-term stability if Iraqi leaders cannot heal their 
divided politics. Sunni Arab communities must be offered a tangible 
stake in the future of the country. To date the U.S. strategy has been 
to nurture reconciliation through support for the devolution of 
authority to local government, the mobilization of Sunni Arabs into the 
security force, and legislation like the amnesty law that passed last 
August.\7\
    Ultimate success or failure for reconciliation will rest with 
Iraqis. Outside actors like the United States should approach such 
efforts with humility and measured expectations. And yet the fact that 
these non-military dimensions are so vital to Iraq's future security 
and the fight against ISIS means that much more must be done.
    First, the administration should consider additional resources to 
accelerate government decentralization.\8\ Second, it should also 
accelerate efforts to recruit Sunni Arabs into the security forces 
through the U.S. Department of Defense's Iraq Train and Equip Fund. 
Finally, the embassy in Baghdad should encourage recent local attempts 
at reconciliation. Two Shia leaders and a Sunni Arab political bloc 
have launched competing reconciliation initiatives. If these efforts 
are genuine, the United States should be prepared to nurture them where 
possible through increased diplomatic engagement and presence in Iraq.
    For their part, the Kurds have been amongst the most steadfast and 
effective partners against ISIS. They will want to be rewarded at a 
time that aspirations for independence are running high. While this 
ultimate Kurdish objective does not appear realistic at this time, 
there needs to be a channel of communication with the KRG to discuss 
how they can be compensated for their sacrifice.

    2) The future of Shia militia in Iraq: One of the biggest threats 
to reconciliation remains sectarian Shia militias. Estimates of the 
total Shiite militiamen in Iraq vary widely from 100,000-120,000--
mostly organized under the banner of the Popular Mobilization Front 
(PMFs). Roughly half of the PMF units were formed out of pre-existing 
Iraqi militias, while the rest are new formations mobilized in response 
to Grand Ayatollah Sistani's 2014 fatwa.\9\ A large proportion receives 
direct Iranian backing. Many of the Iranian-backed militia were 
responsible for killing some 500 U.S. troops from 2003-2011.\10\
    U.S. policy towards the PMF has evolved. In 2014, U.S. refused to 
provide them military support, but since mid-2015, American policy has 
evolved to include air and other support for those PMF units not 
beholden to Iran.\11\ On November 26, the Iraqi government passed 
legislation making the PMF an official component of Iraq's security 
forces with equal status to the army,\12\ but there has been little 
movement by the Iraqi government to implement the November legislation. 
Iraq's president has indicated that there are several possible options 
including turning the PMF into a reservist force, or full integration 
into the existing structure of the Iraqi armed forces.
    However, PMF leaders exercise considerable political influence 
inside Iraq. There is a very real risk that the PMF could take root as 
a Hezbollah-style Iranian proxy. Such a development would threaten 
Iraqi sovereignty and undercut attempts at national reconciliation. 
There are no easy solutions to managing the threat posed by Iranian-
backed PMF units, but the U.S. could play a constructive role in 
facilitating the demobilization or integration of the remaining PMF 
units into the ISF.

----------------
Notes

    \1\ ``The Islamic State and U.S. Policy'', Christopher M.Blanchard 
and Carla E. Humud Congressional Research Service February 2, 2017.
    \2\ International Organization for Migration, ``IOM Iraq: 
Displacement Tracking Matric Counts 133,302 Displaced from Mosul 
Operations,'' January 6, 2017.
    \3\ Emily Anagnostos, ``The Campaign for Mosul: February 1-21, 
2017,'' Institute for the Study of War.
    \4\ OCHA Iraq, ``Iraq: Mosul Humanitarian Response,'' February 17, 
2017.
    \5\ Brett H. McGurk, ``Global Efforts to Defeat ISIS,'' Testimony 
before the Senate Foreign Relations Committee, June 28, 2016.
    \6\ Nancy Youssef, ``U.S. Pushes for More Bases to Fight ISIS in 
Iraq,'' The Daily Beast, April 7, 2016.
    \7\ The White House, ``Joint Statement by the United States of 
American and the Republic of Iraq,'' Press release, April 14, 2015.
    \8\ USAID Iraq, ``The Path to Stability and Security: A Lesson in 
Decentralization, Cooperation, and Coordination From North Babil.''
    \9\ Jack Watling, ``The Shia Militias of Iraq,'' The Atlantic, 
December 22, 2016.
    \10\ Kenneth Katzman, ``Iran's Foreign and Defense Politics,'' 
Congressional Research Service, February 6, 2017.
    \11\ Kenneth Katzman, ``Iran's Foreign and Defense Politics.''
    \12\ Asharq al-Awsat, ``Iraq Parliament Passes a Law Legalizing 
PMF,'' November 27, 2016.

    The Chairman. Thank you both.
    Just based on the people you talk with, you get no sense 
that there is not a longer term commitment, do you?
    Every U.S. official I am talking to understands what you 
just said about the fact that we have to be there for some 
time. You get no sense of that from any one you talk with, do 
you, to the contrary?
    Mr. Lang. No, sir. I guess the question is the need to 
actually sequence and start the negotiations as soon as 
possible while we are still at this moment of high-level 
leverage.
    The Chairman. I think they understand what needs to be left 
behind. I think those conversations are underway, and I get no 
sense, just for what it is worth, that there is anyone who 
wishes to have another 2011 type activity.
    I would just like to ask, are you all getting any different 
signals from anyone?
    Dr. Knights. So it is true that there is a new 
understanding and willingness to continue the mission, 
including with the coalition partners as well as U.S.
    The Chairman. Yes, no question.
    So let me ask you this. The Kurds are obviously moving 
toward independence. We spent a great deal of time with them. I 
know they are not quite as strident with their conversations 
with Abadi, but they are very strident when it comes to us here 
and certainly very strident in Kurdistan.
    Give us a sense of the impact of that, should they move to 
further cause themselves to be independent from Baghdad.
    Dr. Knights. So at the moment, the discussion in Kurdistan 
around independence I think has a very economic flavor. There 
is an understanding that, if relations with Baghdad break down, 
the Kurds would lose access to a number of economic aid 
supports.
    They would also potentially have more complicated access to 
international security assistance and that they might well face 
greater legal challenges exporting their oil.
    I do not detect inside the Kurdish leadership a near-term 
ambition to push quickly for independence, nor to negotiate a 
kind of amicable divorce over a period of 5 to 10 years with 
the Baghdad government.
    The Chairman. Do you want to say anything to that?
    Mr. Lang. No, I would only add that, at the moment, when 
one spends time in Kurdistan, you get the feeling that there is 
a tremendous amount of internal housecleaning that needs to be 
done. There is a lot of political friction and difficulties 
between the different Kurdish parties, and much of the economic 
state-building program in Kurdistan is on hold.
    So in terms of Kurdistan becoming a viable state any time 
in the immediate future, again, there seems to be a separation 
between the rhetoric that we hear from the Kurds and then the 
closed-door conversations about what they really think is in 
the realm of the possible.
    The Chairman. I think the fact that they would have to ship 
their oil through Turkey and could very well become a sub-state 
of Turkey, if they are not careful, obviously causes concern. 
And so to have a nonamicable relationship with Iraq would be 
very much not in their interests.
    Let me ask you, the PMF, one of you mentioned those that 
are aligned with Iran certainly should not be a part--look, 
most of them are aligned with Iran, so, I mean, there is a law 
that has been passed relative to the Popular Mobilization 
Forces. It looks like they are going to be a part of the 
security infrastructure there. They are very much aligned with 
Iran, most of them. There are a few that are not, as you 
alluded to, Mr. Lang.
    But I mean, this is a fact of life there. I am just 
wondering, I do not see this not being a fact of life. Are you 
guys sensing there is some different outcome that may occur 
with the PMF other than them being part of the security 
infrastructure there?
    Mr. Lang. I think the real danger at this stage would be if 
you see the PMF or elements of the PMF, particularly the three 
or four large ones that are backed directly by Iran, to the 
extent to which they remain outside of the ISF, and I think 
that there probably is a degree of intention inside of them to 
do so, that becomes a danger point.
    And then for us, it is the nature of the investment that we 
make in Iraqi security forces going forward to serve as a 
balance against that that becomes crucial.
    Dr. Knights. And I would add that the PMF are very 
splintered. They are very difficult to consolidate under one 
electoral banner or under one command and control arrangement.
    So splintering them down into their irreconcilable 
elements, like Katai'b Hezbollah or Asa'ib Ahl al-Haq, versus 
other elements related to the shrine militias, and even Badr--
there is always the potential that a group like Badr, which is 
the largest PMF entity, could be mainstreamed over time and 
could be broken down into subcomponents with a clever policy.
    Also anywhere where the Iraqi security forces are present, 
they are able to effectively counterbalance the PMF presence. 
In a place like Basra, for instance, where there have been no 
major Iraqi army units since 2013, we have seen true break down 
and true militia control.
    The Chairman. Senator Cardin?
    Senator Cardin. I want to thank both of our witnesses.
    There is no question that we have made a great investment 
in Iraq, and it is in our national security interests to make 
sure that Iraq becomes a stable country and does not become an 
Iranian client state, which is one of the fears I think many of 
us have.
    We do not want to see the type of collapse we saw in the 
Iraqi security forces that we saw in 2014. So it does require 
the attention of the United States and our coalition partners 
in order to give Iraq a chance for a national government to 
represent all of its people and a security force that can 
maintain the security in the region.
    So I want to point out a couple challenges we have and then 
see what you think we should be doing.
    One challenge is whether we will get Iraqi cooperation on 
the maintaining of our troops or our military presence in their 
country. There are political considerations here.
    When the President's executive order named Iraq as one of 
the countries where we would not accept refugees, that makes it 
difficult for the Iraqi Government to work with the United 
States on the continued military presence. Or when statements 
are made about taking Iraqi oil, that certainly is not 
conducive to the type of political support that we need from 
the Iraqi Government.
    I might also add the January 28th executive order that is 
reviewing the rules of engagement, because it is clear that as 
you change the rules of engagement, the chances of more 
civilian casualties become greater, which again raises the risk 
factors of the ability of the Iraqi Government to cooperate 
with our coalition partners.
    So I put that out there as challenge one, and whether we 
are moving in a direction that is going to make it impossible 
or difficult for us to get the type of cooperation from the 
Iraqis for a continued presence.
    And secondly, the trust factor, we spend a lot of money on 
military. That seems safe under the Trump proposed budget that 
we will see soon. But the other side of that coin is how do we 
help them rebuild their nation? How do we help them get an 
economy that is moving for all of its people? How do we deal 
with governance support from the point of view of our 
development assistance, whereas we now see budgets that are 
being suggested by this administration that could have deep 
cuts in that aspect of our national security?
    So with those two challenges, how do you see us dealing 
with this challenge so that we can, in fact, be a partner to 
Iraq?
    Mr. Lang, if you would start? Or, Dr. Knights? Whoever 
wants to start.
    Mr. Lang. On the question of Iraq cooperation, I mean this 
really is the fundamental issue in terms of maintaining a 
residual force for a follow-on mission.
    And you raised the issue of the executive order and the ban 
on seven countries. The Iraqi Parliament responded to that and 
pushed quite hard for a similar ban inside of Iraq on 
Americans, and it put Prime Minister Abadi in a very difficult 
position where he was forced to sort of override the Parliament 
and to not action that piece of legislation.
    Prime Minister Abadi is already in a reasonably weak 
position, and the last thing that we need to do is to sort of 
fan the flames of anti-American sentiment inside of Iraq, 
particularly for those political forces that are backed by Iran 
and that would like to see us leave.
    So I could not agree more that those kind of statements 
have been deeply unhelpful, not just from a political sense, 
but also morale. There was one point where the sort of 
commander of the counterterrorism service, which is one of our 
most valuable partners inside Iraq, his family is living in the 
United States. And when the order came down, it was unclear to 
him whether he would even be able to come back to visit.
    So these sorts of things probably they do more harm than 
good, in terms of our negotiations going forward.
    On the trust factor for rebuilding, yes, at this stage, we 
are at an inflection point. There are going to be some critical 
issues, particularly short-term stabilization, that are going 
to need work to follow-on and lock in some military gains. 
Those are activities that should fall to civilians. There are 
key offices like the Office of Transition Initiatives in USAID 
or CSO in the State Department that do this kind of stuff.
    There is about $2 billion pledged to do some of this work 
over the last summer, but it hasn't as of yet made its way into 
a pipeline to actually impact on the ground. And it is hard to 
see that, if we are not there to lead with economic assistance 
going forward, how we are going to be able to rally the rest of 
the coalition to do the same.
    Senator Cardin. Dr. Knights?
    Dr. Knights. So very quickly, it is clear that we must have 
no more self-inflicted wounds when it comes to Iraq. We need to 
leave no opening for the Iranian-backed movement to cut us out.
    But it is also clear, the fact that we survived this 
January problem shows our value to the Iraqis.
    If we are going to continue our presence and our mission 
there in Iraq, we need to stress the continuity of the 
mission--not a new mission, not a new mandate, not a new 
agreement, the same one that we are operating on right now. If 
we create even an inch of daylight between us and the Iraqis, 
we will get thrown out again. We need to maintain and stress 
the continuity of the mission.
    And one of the things that Prime Minister Abadi has 
learned, I think, over the last couple years is it is much 
easier to do things informally than formally in Iraq. So 
anything that we can do to keep it quiet is good.
    In terms of rules of engagement, I maybe would push back a 
little bit. There is a difference between prompt civilian 
casualties that happen because you drop a bomb on them by 
accident and a very large number of civilian casualties that 
often happen if you let a battle drag on for months rather than 
weeks. A place like Ramadi is a great example of that.
    I think, in many ways, by loosening the rules of engagement 
slightly, you might well save more lives in the long term. And 
I think we have definitely seen that since 2014.
    Senator Cardin. Thank you.
    The Chairman. Senator Johnson?
    Senator Johnson. Thank you, Mr. Chairman.
    I just want to do some rough numbers. I do not need 
anything specific.
    But you talked about in your testimony, Mr. Lang, the PMF 
force is somewhere between 100,000 and 120,000. What is the 
size of the Iraqi security force? Similar? Just rough numbers.
    Dr. Knights. No, the Iraqi security forces would be far 
larger than that when you add them all together, maybe around 
530,000.
    Senator Johnson. 530,000. How many are engaged in the 
battle of Mosul right now?
    Dr. Knights. So the battle of Mosul should be around 
70,000.
    Senator Johnson. Okay. We have about 5,000 U.S. troops.
    Dr. Knights, you were talking about what a really expanded, 
committed coalition we have. How many troops do we have of our 
committed coalition partners?
    Dr. Knights. I do not have an exact figure on that.
    Senator Johnson. A couple thousand?
    Dr. Knights. Yes, it would be a couple thousand. It would 
probably be slightly smaller than the U.S. when you added 
everything together.
    Senator Johnson. The committed coalition is probably under 
10,000.
    Dr. Knights. Yes, absolutely.
    Senator Johnson. What do we have in terms of the number of 
Peshmerga involved or available?
    Dr. Knights. ``Involved'' is a difficult concept because 
they are running the entire frontline between the Syrian border 
and the Iranian border. But in terms of being involved in 
active combat operations, it is almost zero right now.
    Senator Johnson. Okay. So how many are involved right now, 
in terms of holding the line, then?
    Dr. Knights. There is probably say about 200,000 Peshmerga 
on the frontline.
    Senator Johnson. Okay. And ISIS, what are the current 
estimates of their fighting force now?
    Dr. Knights. It is only ever a guess, but maybe under 8,000 
up in the Mosul area.
    Senator Johnson. Okay. So we literally have hundreds of 
thousands massed against about 8,000, so we should be able to 
win that battle.
    So then we do talk about the residual force. Going back to 
2011, which I think is still just a blunder of historic 
proportions, bugging out of there, the talk was leaving 
somewhere around 20,000 troops.
    In hindsight, would that have stabilized the situation? 
Would that have been enough U.S. troops to help stabilize--
again, look, you both are testifying that Iraq is incredibly 
important for the region. It is surrounded by all these 
countries. Stabilizing Iraq, leaving a stabilizing force, I do 
not think things would have spun out of control.
    So would that have been enough to stabilize that situation?
    Dr. Knights. I think it would have done, because 
ultimately, when you look at the kind of impact that a small 
number of advisers are having right now in a number of key 
headquarters, we can have a pretty transformative effect with a 
fairly small number of people put in the right place.
    And basically, ISIS taking Mosul was a fluke. ISIS taking a 
third of Iraq was a fluke. They thought they were just going to 
do a prison breakout. They ended up accidentally taking over a 
third of Iraq.
    You know, that rottenness might not have been as extreme 
within the Iraqi security forces if we had a residual mission.
    Senator Johnson. So is our residual mission more of a 
challenge today than it would have been in 2011? Or because we 
have the committed coalition, we have the Peshmerga, in many 
respects we have a common enemy in ISIS right now, is it going 
to be easier to have a residual force?
    Dr. Knights. I think we have some factors playing to our 
advantage. The Sunni community in Iraq I think is seeing 
exactly how bad ISIS is and there is not a lot of sympathy left 
for them.
    I think, likewise, we have created a breakpoint between the 
2003 to 2011 experience, invasion, occupation, et cetera, and 
this new mission of helping the Iraqi security forces against 
the common enemy of pretty much all Iraqis.
    So I think we are in a slightly better position now, and 
particularly having the international coalition there, all 
those nations, whereas before it basically was just U.S., U.K., 
and a couple small countries.
    Senator Johnson. Have Iraqis understood and also learned 
the lesson as well, that if they do not come up with an 
agreement, if we do not have a stabilizing force and committed 
coalition, things are going to just fall apart again? Or do 
they think they built up there, the Iraqi security forces are 
going to be able to take care of this without a committed 
coalition of the West?
    Mr. Lang. Senator, just to break down a couple points 
there, my sense of this would be that within the Iraqi security 
forces and in certain members of the national security 
establishment inside of Iraq, and also the Peshmerga, clearly, 
there is an understanding and an appetite for the U.S. to 
remain.
    The question is, as that question moves into the political 
realm and into the political crisis in Baghdad, where Prime 
Minister Abadi is sort of straddling these----
    Senator Johnson. Okay. I have limited time.
    What do you think is the estimated size of a residual force 
of U.S. troops to stabilize that situation? Do you think 5,000 
is going to do it? Ten thousand total coalition partners?
    Dr. Knights. I would say around 5,000 with an equal number 
of coalition partners could have a very significant effect and 
could be sustainable.
    Senator Johnson. And then, finally, when we talk about 
development and potential U.S. foreign aid, the oil is flowing 
in Iraq now, correct? What percentage of the oil fields are 
open and producing revenue that ought to pay for that 
redevelopment itself?
    Dr. Knights. Pretty much all of them. You know, there are a 
few very small ones that were under ISIS that are still 
damaged, but pretty much everything else is operating. And the 
Iraqis are now bringing in about $5 billion a month, which 
allows them to meet their operating budget and their payroll.
    Senator Johnson. So maybe they can even fund the 
stabilizing forces as well? They have revenue coming in. This 
is not a failed economy anymore. They stabilized what is their 
primary economic resource: oil. And the first goal of 
stabilization is to make sure that oil stays flowing.
    Dr. Knights. And that is why we have to build up the 
security forces again, so they can protect things like Basra, 
the one and only main oil exporting hub for federal Iraq.
    Senator Johnson. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    I appreciate our witnesses. Let me just make a prefatory 
remark that while these hearings of private citizens who come 
from very distinguished backgrounds and think tanks are 
important and illuminating, I hope that sometime soon the 
administration will nominate individuals that the committee can 
consider, so we can actually get people from the State 
Department to speak to what some of our strategy and plans 
moving forward are, because, in the absence of that, it is very 
difficult to think about how one formulates policy here.
    So I hope that that will happen soon.
    Moving back to Iraq, let me just say that President Trump 
inherited a campaign that has made some significant gains to 
oust ISIS from its strongholds. And while we may, indeed, be on 
the verge of some major military successes to liberate cities 
and people from ISIS's brutal stranglehold, lasting peace and 
stability can be far more elusive.
    And while the President has previously claimed to know more 
about ISIS than the generals, the Pentagon's view in its new 
plan requested by the President indicate there is a lot of work 
to be done.
    Now both of you have indicated this work requires 
significant attention, resources, and commitment from Iraqis, 
the United States Government, and coalition partners. I think 
everyone on this committee, and I think you, would recognize 
the importance of leadership and critical decision-making.
    We have yet to see anyone nominated for critical positions 
at the State Department, including a Deputy Secretary. The 
Bureau of Near Eastern Affairs currently has an Acting 
Assistant Secretary and no principal Deputy Assistant 
Secretary.
    With these critical positions vacant, there has been no 
policy guidance for dedicated, nonpartisan civil servants and 
Foreign Service Officers to execute.
    Equally if not more troubling, the administration is 
reportedly weighing devastating cuts to the foreign assistance 
budget, which would include cuts to Iraqi programs, including 
police training, judicial reform, education, economic 
development programs that make the Iraqi population more stable 
and resilient to ISIS's warped ideology.
    With the recent announcement of the Principals Committee 
reviewing the Defense Department's revised ISIS strategy, it 
looks alarmingly like the State Department, our agency tasked 
with leading diplomacy and policymaking, is being undermined 
and sidelined.
    So my question is, what impact does that have on our 
ability to execute plans successfully in Iraq? Will significant 
cuts to the State Department and USAID undermine efforts to 
promote long-term stability in Iraq? And I invite either one of 
you to speak to that.
    Mr. Lang. Last year, in my last trip to Iraq, and then also 
again going down to CENTCOM and speaking to folks, one of the 
things that was quite notable was the extent to which the 
campaign, the military campaign, the way in which it was being 
conceived, stopped at the kinetics. So the rest of it, the 
stabilization, the development, the key pieces that need to 
come next to sort of lock in what the military is doing, is 
just not a set of issues that the military was prepared to deal 
with or function on.
    And there was very little sort of connectivity back through 
the State Department. They had to go all the way up the chain 
of command and down to start having that conversation.
    In much of my testimony, one of the things we were talking 
about recommending was, in essence, a little bit of a 
diplomatic surge into Iraq. We are probably going to need some 
additional people of ambassadorial rank to sort of serve in key 
positions to help manage some of these problems going forward.
    And the idea that the State Department does not have the 
kind of budget that is required to do this, we are looking at 
budget cuts where we might not have the staff to help execute 
this, may explain why some of these elements of engagement 
along civilian lines of effort have taken some time to kick in, 
probably too long at this stage.
    Senator Menendez. Dr. Knights, are you interested in----
    Dr. Knights. Well, I am not the expert on this, but we 
should only focus on the State Department civilian lines of 
effort if we are going to be able to do them right. And from 
having been in Iraq a long time, if you cannot get out of the 
Embassy, if you cannot move, if you cannot meet people, it is a 
waste of time anyway.
    So in some ways, if we are going to do the diplomatic 
surge, it has to include accepting risk. It has to include 
perhaps reestablishing out-stations in places like Hilla, where 
we killed off our little sort of consulate there back during 
the withdrawal days. And it left us with gaps all over the 
country by pulling these things in Kirkuk and Hilla and other 
places back.
    So if we are going to do a civilian surge, we need to 
really do it seriously because there is no in between. It is 
either an ineffective mission that costs a lot of money, or it 
is an effective mission that is going to cost a lot of money 
and require risk. Try to do the in between, and you get 
nothing.
    Senator Menendez. I cannot imagine, at the end of the day, 
doing all of the military elements necessary and then what you 
need to do to hold ground, to continue to create the authority 
over those jurisdictions that you have reacquired, and not to 
have the civilian entity that is necessary for the follow-on of 
governance in those areas that can hopefully lead to a better 
day.
    In the absence of that, we are just talking about a 
perpetual engagement in Iraq that seems to me has no follow-on. 
So I understand what you are saying about safety and security 
in order to be able to do it. But at the end of the day, if we 
do not provide the wherewithal for that to happen, I cannot 
imagine us doing anything but having troops on the ground for a 
very long period of time.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Young?
    Senator Young. Thank you, Chairman.
    Thank you for your testimony, gentlemen.
    The title of today's hearing, ``Iraq After Mosul,'' we need 
to develop a strong plan. We have to properly resource that 
plan.
    Mr. Lang, you hit on two prongs, the two most obvious 
prongs of proper resourcing--we need money, sufficient 
financial resources. We also need personnel, so we need to 
nominate appropriate personnel. And then we need to 
expeditiously consider those nominations and move them through 
the hearings.
    I find it ironic that anyone would criticize this 
administration for not putting forward people to properly staff 
up the State Department yet we continuously delay consideration 
of some of these nominees.
    To his credit, President Trump signed a presidential 
memorandum on January 28th directing the development of a 
comprehensive plan to defeat ISIS. Defense Secretary Mattis 
reportedly briefed top Trump administration officials yesterday 
on that plan. You know, I trust Secretary Mattis and his 
military counsel.
    However, we know that a sound military plan is not enough. 
Just yesterday, the leaders in the House and the Senate 
received a letter you no doubt are familiar with from over 120 
general and flag officers indicating that we have to elevate 
and strengthen our diplomacy and development efforts if, in 
fact, we are going to keep America safe and secure.
    I will quote from that letter. ``The military will lead the 
fight against terrorism in the battlefield, but it needs strong 
civilian partners in the battle against drivers of extremism--
lack of opportunity, insecurity, injustice, and hopelessness.''
    So in short, a strategy that fails to address the 
political, economic, and ideological conditions that are really 
sort of root causes of so much of this conflict is a 
shortsighted strategy. It is one that will not be successful in 
the long term.
    Do you both agree with that assessment? Yes or no? You can 
elaborate very briefly, if you would like.
    Mr. Lang. Yes, I would agree.
    Dr. Knights. I think you have to have security first and 
then you do the rest. Without security, you have nothing. You 
have no basis to work off.
    I think the best that the U.S.--the thing they are best at 
is security cooperation. That is what the Iraqis value the 
most. That is what gives us the most punch and value there.
    So even though I do believe we do need to put nonmilitary 
aid into Iraq, I do not think we are good at it. And unless we 
get good at it, that should not be our main focus.
    Senator Young. Which is a fantastic point, and all the more 
reason that this committee needs to continue to work on 
reforming our efforts in a bipartisan way over at the State 
Department. I know we have dealt with human trafficking, rights 
of women and girls, trade and energy in Africa, made numerous 
strides, but there is much more to be done. I think everyone 
recognizes that on this committee.
    Would you both agree that promoting effective and 
representative governance in Iraq is an essential element of a 
strategy for the sustainable defeat of ISIS? Yes or no is fine.
    Mr. Lang. Of course.
    Dr. Knights. Yes, but it is more important to have 
representative local security forces than to have some kind of 
perfect local or national system of government. Iraqis want 
security above anything else. We can handle other stuff down 
the line.
    Senator Young. You acknowledge we are not seeking 
perfection. We are seeking to manage a very difficult situation 
right now.
    And would you both agreed that disrupting the flow of 
foreign fighters outside of Iraq and Syria, providing 
humanitarian relief, working with regional partners to disrupt 
ISIS's finances and exposing ISIS's true nature are all 
important elements of a successful strategy with the due 
understanding that there could well be other important 
components as well?
    Dr. Knights. Yes.
    Senator Young. Okay.
    Mr. Lang. And these are elements that will take on 
increased importance as the sort of major military aspects of 
the campaign in Iraq and then hopefully in Syria begin to wind 
down.
    Senator Young. And you no doubt agree that the plan should 
address public diplomacy, information ops, cyber strategies to 
isolate and delegitimize ISIS and its radical Islamist 
ideology.
    Dr. Knights. Yes, but defeating them on the battlefield is 
more important.
    Senator Young. In the near term?
    Dr. Knights. I think in all terms, because, ultimately, 
what made them so attractive was the fact that they were seen 
as winners. Us defeating them on the battlefield and keeping 
them from reemerging on the battlefield is critical.
    The thing you are getting from me is it is important to 
attack their ideology, et cetera, et cetera. That is important. 
But what is more important is to show them to be losers, to 
beat them on the battlefield publicly, and to prevent them 
from----
    Senator Young. Which undermines their ideology.
    Yes, Mr. Lang?
    Mr. Lang. Absolutely. I think the military success is the 
critical piece of the puzzle. It robs them of the content.
    The piece on the cyber strategy and exposing their true 
nature, it is just something that we have never been 
particularly great at, and we need to probably do a little more 
work.
    But also, there is a real question of, are we the right 
entity to do that, the United States? And how much more of that 
needs to be done by partners in the region who may have a 
little bit more credibility with those audiences?
    Senator Young. So you have acknowledged to varying degrees 
in various ways that we have to fully fund all instruments of 
national power to sustainably defeat ISIS, the scourge of this 
barbaric ideology. And presumably, to close here, you would 
agree with now-Secretary Mattis' formulation when he was 
commander of CENTCOM that if you do not fully fund the State 
Department, then he is going to need to buy more ammunition. Do 
you agree?
    Dr. Knights. Yes.
    Mr. Lang. Yes.
    Senator Young. All right. Thank you.
    I yield back.
    The Chairman. Thank you very much.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both for being here today.
    Mr. Lang, you alluded to the reaction to the President's 
travel ban in response, I think, to a question from Senator 
Cardin. But I want to just phrase it another way.
    Do you think that this kind of a travel ban makes it harder 
for Prime Minister Al-Abadi to resist those hardliners within 
Iraq, particularly those who seek closer relations to Iran, as 
being something that they believe is preferable to the U.S.?
    Mr. Lang. Ma'am, I think it particularly undermines his 
ability to push back politically against that very group, 
because, in essence, what many of those political leaders are 
saying, or representatives of the sort of PMF who are 
associated with Iran, is, see, we told you so. This really is 
where the Americans are.
    That coupled with the talk of taking the oil has 
reverberated inside the Iraqi body politic.
    Secretary Mattis did yeoman's work in terms of pushing back 
against that on his recent visit, but it would probably be a 
good thing if we could hear that also from the Commander in 
Chief.
    Senator Shaheen. And, Dr. Knights, you are nodding. Do you 
agree with that?
    Dr. Knights. Absolutely.
    Senator Shaheen. Thank you. And again, this is territory 
that has also been covered, but I think it is worth repeating 
in terms of the proposal from the administration to increase 
defense spending by $54 billion and take a lot of that funding 
out of the State Department and other nondefense agencies, many 
of whom who are responsible also for security.
    Several years ago, Secretary of Defense Mattis, who at that 
time was serving as the commander at CENTCOM, was testifying 
before the Senate Armed Services Committee. And he said, I 
quote, ``If you do not fund the State Department fully, then I 
need to buy more ammunition.''
    So in your opinion, if we are really serious about 
defeating ISIS, does it make sense for us to weaken the State 
Department and their ability to help follow up on the military 
campaign? Either one of you.
    Mr. Lang. Senator, I think it will undermine our ability to 
carry forward the next elements of the campaign in a 
significant fashion.
    I would sort of caveat that remark and a point that Dr. 
Knights made about the need to be able to move outside the wire 
on the part of the----
    Senator Shaheen. Sure.
    Mr. Lang. --civilian agencies. And there are organizations 
inside the U.S. Government who are pushing to do that sort of 
thing.
    But I think that if we do not do this, we are going to get 
locked into sort of a long-term counterterrorism mission that 
really does not have a political end to it.
    Senator Shaheen. And just to go back to your point, Dr. 
Knights, about defeating ISIS on the battlefield, what happens 
to that effort, that goal, if we continue to have the conflict 
in Syria, the civil war there, that provides an opportunity for 
ISIS to go back across the border. And so even though we may 
have pushed them out of territory, as we did earlier, they have 
the ability to come back.
    So how should we be thinking about that as we are thinking 
about our efforts on the battlefield?
    Dr. Knights?
    Dr. Knights. So it is clear that when we lost Mosul, or 
when the Iraqis lost Mosul in the summer of 2014, that had a 
significant cross-border element to it, and that is going to 
continue. They are going to have a safe haven over in Syria for 
a while longer than they have it in Iraq, which means that we 
need to prioritize the creation of border security forces in 
Iraq again, and it means that we need to be able to support 
them to do things like wide area surveillance and quick 
reaction force out in the western desert of Iraq and on the 
Syrian border with Ninawa Province where Mosul is.
    That is one of the ways we need to evolve the security 
cooperation program from where it is now, fighting conventional 
battles, to where it is then, being able to do these kind of 
long-range operations in the desert and other remote areas.
    Senator Shaheen. Should we take any special significance 
from the visit by the Saudi Foreign Minister to Baghdad this 
past weekend? So the first visit by a Saudi Foreign Minister in 
almost 27 years?
    Dr. Knights. I think the Saudis are reaching out in a 
number of directions to try and calm down their regional 
environment, and Iraq would be one of those areas. But I do not 
think anything really goes very far between Iraq and Saudi 
Arabia for very long. They are probably just doing the absolute 
minimum.
    Mr. Lang. Senator, the only caveat I would offer to that 
observation, I do think it is significant that the Foreign 
Minister made the visit, and I think it is something that we 
should reach out to and try to cultivate and continue.
    One of the things that I think we would like to see going 
forward is that the Gulf states help to pay or play a more 
significant role in stabilization of the development and 
recovery activities inside of Iraq.
    Now, of course, this is going to be difficult, and they 
have a dim view, obviously, of the sort of association of 
government in Baghdad and Iran. But the fact that the trip was 
made is not insignificant.
    Dr. Knights. Debt forgiveness is really what the Saudis and 
the GCC need to do with Iraq, fully finishing off that old 
debt. But I think Saudi presence on the ground or involvement 
is kind of toxic in Iraq when done at the local level.
    Senator Shaheen. Thank you all.
    The Chairman. Just for what it is worth, I think people on 
the inside viewed it as a very significant trip. Iran has tried 
to execute him three times. He risked his life to be there. And 
I think it was viewed as far more significant than is being 
stated today.
    Secondly, just in response to what is happening in Syria, 
General Townsend is conducting both operations and, I will say, 
is most impressive. So I think the questions relative to what 
is happening there, I mean, it is being looked at as one, it is 
being conducted as one, and my sense is they understand full 
well the essence of Senator Shaheen's question.
    Senator Paul?
    Senator Paul. Thank you for your testimony.
    Mr. Lang, you mentioned in your testimony there was no real 
need for nation-building, and yet you also say we need to take 
a lead on economic assistance. How does that go together? That 
sort of sounds like the same thing to me.
    Mr. Lang. Senator, I understand the question.
    The piece of this that I am talking about most deliberately 
and immediately is the line of effort on stabilization, and 
these are sort of short-term, immediate quick impact projects 
that are designed to basically get communities to start to talk 
to each other and provide a little bit of governance, a little 
bit of assistance, a little bit of employment in the immediate 
wake of the fighting.
    I mean, these are things the military will tell you are 
required to sort of lock in any sort of gain that they are 
making.
    Senator Paul. So you are differentiating short-term 
economic assistance from long-term, in saying that nation-
building is long-term assistance and short-term is not. You 
know, I think that could be a distinction. It might be a 
definitional thing.
    But we have been there 10 years, so we have given quite a 
bit of aid. It is hard to argue that a little bit of short-term 
assistance is not on top of a trillion dollars' worth of 
nation-building, both military and nonmilitary. We have spent a 
lot of money over there, which goes back to a couple points.
    One point, they are not a destitute country. They have oil, 
and, by golly, they ought to rebuild their own country. We can 
be of some help stabilizing things, but it is not our 
responsibility to rebuild everybody's country.
    Look, we are out of money. We are $20 trillion in the hole, 
so everybody comes forward and says how great it would be if we 
rebuild every country. Look, I have a bridge that is 50 years 
old in my state I would like to replace. We build and bomb so 
many bridges around the world, we do not have any money left 
over for ourselves.
    So we do have problems at home that we need to think about, 
and we need to think about how long are we going to keep doing 
this. A decade, two decades, three decades, 50 years, 100 
years?
    Dr. Knights, you mentioned that there were a lot less 
attacks during 2007 to 2011. I am guessing we were probably 
averaging, what, 50,000 troops or more? We had a bunch of 
people there during that period of time. The surge was 
basically 2000, going on in 2007 still.
    And then when we had less people there in 2011 to 2014, the 
sectarian differences came forward. You know, Sunnis were 
pushed out of the army, out of positions, government, et 
cetera. I think all of that is true, which goes back to my 
question again.
    The sectarian differences have been there for a thousand 
years, and we can paper over them maybe when we are there. 
Maybe we are of assistance in that. But you think at some point 
their own self-interests in saying that--you know, one of the 
points you made about regionalizing police and/or military 
makes perfect sense. In the Sunni regions, you ought to have a 
Sunni colonel overseeing a Sunni region. In the Kurdish region, 
the Kurds should oversee it. In the mixed regions, maybe a more 
mixed force. You think they would know that. And they had the 
disaster.
    I guess, how long are we going to do it? And can we do it? 
You know, can we paper over the differences of a thousand 
years? Or maybe it is going to take them kind of sorting out 
their differences.
    You know, the longer we stay, the more Americans are seen 
with disregard, you know? We say we do not want too many 
because they will not like us interfering in their stuff. Well, 
maybe we need to have a lot of diplomats be of assistance, but 
maybe we do not need to have large troop forces in the country.
    I mean, look, I do not understand. There are 8,000 ISIS 
left. You have 500,000 in the Iraqi army and they cannot take 
care of 8,000 soldiers? You have 200,000 Peshmerga. You have 
another 600,000 Turks. You have armies everywhere. And you have 
8,000 people and somehow Americans have to be in the middle of 
it?
    We become a target, and we end up engendering sometimes 
more than we accomplish. So I would just say we ought to think 
through how long this is going to be.
    And I guess to Dr. Knights, how long do you think we have 
to stay? And are they not going to learn lessons about the 
sectarian strife that ends up bringing them down?
    Dr. Knights. I think on both economic assistance and on 
security assistance, we have reached a place where maybe we are 
doing things the right way right now.
    So on economic assistance, we are not in there rebuilding 
all the bridges and building the whole power sector. We are 
helping them to get an IMF economic reform program. We are 
helping them to get bonds from the international community, so 
they can borrow at decent rates without bond guarantees. These 
things do not cost the sorts of amounts they used to when we 
were trying to rebuild the actual infrastructure of the 
country, but they help Iraq a lot. So it is a lot of bang for 
the buck.
    Senator Paul. Is their economy not able to borrow money?
    Dr. Knights. No, because of the major political risk 
associated with being in the midst of a huge war.
    But also, when it comes to the security cooperation, Iraqis 
down at the local level do understand that you have to have 
mixed security forces that reflect the local population. But 
when you are interacting with federal agencies at the center of 
the country and you get down to the nitty-gritty of who ends up 
being the police chief in that place, that is where sometimes a 
little bit of U.S. involvement can make a lot of difference in 
the picking of the right people to run the right places. And 
this only requires a couple of core people based out of this 
headquarters, a hundred people based out that headquarters.
    We are not talking about the huge numbers of people or the 
huge amounts of money there used to be. We have learned a new 
way to operate, and it has been very effective since 2015.
    The Chairman. Senator Murphy?
    Senator Murphy. Thank you, Mr. Chairman.
    Let me just quickly maybe try to put a finer point on a 
concern that continues to be raised about President Trump's 
budget blueprint that proposes cutting State Department and 
USAID by somewhere in the neighborhood of one quarter to one 
third of its present funding. Two things are happening this 
week. One, this budget blueprint is being released. And second, 
General Mattis' recommendation on a new counter-ISIS strategy 
is being delivered to the President.
    The Chairman. Yesterday.
    Senator Murphy. Yesterday, right.
    And so there are really only two options here. Either 
Secretary Mattis recommended a massive cut in State Department 
and USAID funding and it is being implemented by the President 
in this budget recommendation, or he did not recommend a 
massive cut to USAID and State Department funding that will 
have an effect on Iraq and the President is ignoring those 
recommendations.
    Those are effectively your two alternatives, and both of 
them are deeply disturbing. Both of them run contrary to almost 
every piece of advice this committee has gotten from people 
that understand what is going on, on the ground.
    So I just want to put this in context, and I assume we will 
figure out the answer to that question as the President reviews 
the plan and makes it known. But neither option looks terribly 
palatable.
    To both of you, on this question of the importance of 
military activity versus political reconciliation, you both 
said things in your testimony that interest me, and I will put 
them both to you and let you respond.
    Dr. Knights, you have repeatedly emphasized the priority on 
military success as a key to destroying ISIS's narrative and to 
getting to all the other things we want to do. But we have had 
two big military successes in Iraq since 2003. We defeated 
Saddam Hussein, and then, through the military surge in 2007, 
we effectively rendered Al Qaeda in Iraq sort of temporarily 
impotent. But because there was no political reconciliation, 
those forces sprang back to life.
    And so does that not speak to the fact that, in fact, the 
most important thing is being able to achieve some long-term 
political reconciliation?
    And to Mr. Lang's point, you made an interesting comment 
about the fact that the United States might not be the 
appropriate interlocutor to try to bring the two sides 
together. But if not the United States, who is? Because all the 
other players in the region have a dog in the fight between 
Shia and Sunni, right? They have a favorite player in that 
contest.
    So I love the idea of outsourcing political reconciliation 
to someone else, but I am not sure who that is. And, to me, 
that argues for a much bigger presence and a prioritization on 
political reconciliation, contrary to what Dr. Knights is 
suggesting, which his recommendation seemed to end, 
effectively, with achieving military success.
    Dr. Knights. So I will frame it this way. As you know, I 
have spent a lot of time in Iraq. I have seen what effect 
politics have on local and national security.
    You talk about sequencing. My point is that we can do 
security cooperation right now. We are quite good at it, and we 
can deliver it right now, and it is needed right now, and it is 
what gives us leverage right now. And it is what probably 
allows us to maintain a residual presence in the country and to 
span over perhaps into the next Prime Minister's term in Iraq 
from 2018 onward. So that is why we have to get that bit right, 
right now.
    Building Iraqi security forces is about more than winning 
battles, defeating this ISIS now. It is about preventing them 
from coming back. It is about preventing the Shia militias from 
taking over.
    It is a little bit controversial to say this, but I think 
the reason why ISIS took over a third of Iraq, took over Mosul, 
is not because of Sunni disenfranchisement. It is not because 
of alienation at the local level. It is because the Iraqi 
security forces were not good enough. That is the reality. That 
is what happened. I watched it day after day after day.
    And we lost control of local security in Iraq between 2009 
and 2014. That is the problem. Local people looked at ISIS and 
they said they are strong. The security forces are weak. They 
did not say ``I wish the constitution could be amended so the 
Baath Party was not illegal anymore.'' You know, they were 
focused on nuts and bolts local issues.
    We need to develop security forces first to control the 
place, stop ISIS from coming back, stop the Shia militias from 
taking over, stop people from being afraid, then move to the 
next stage of some finer points of the politics and the 
building of the nation.
    Senator Murphy. Mr. Lang, just quickly on that second 
point?
    Mr. Lang. Sir, let me just clarify. What I meant is that we 
need to be humble in terms of the role that we can play as an 
external actor on facilitating reconciliation. I clearly think 
the U.S. is going to have a key role in this going forward, and 
it is one that we are already playing through various civilian 
assistance programs, on decentralization, et cetera.
    The only issue is we could probably be doing more of it if 
we had a bigger diplomatic presence, and we can do it in a way 
that may bring in other actors and quietly be behind the 
scenes, as opposed to sort of taking responsibility for it.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Gardner?
    Senator Gardner. Thank you, Mr. Chairman.
    And, to Dr. Knights, I thought that was a very well-stated 
answer when you talked about what happened in 2009 through 
2014. So thank you for sharing with us your thoughts.
    Thank you, Mr. Chairman. Thank you for holding this 
hearing.
    I wanted to talk a little bit about--and I apologize if 
this has been discussed already--about a report that RAND 
Corporation released earlier this year, in January 2017. They 
said this in the report: ``In 2016, violent Sunni extremists 
have more groups, members, and safe havens than at any other 
point in history. To date, U.S. efforts have not reduced the 
Islamic State's terrorism capability and global reach.''
    Do you agree with that statement? And if so, could you 
provide some additional detail?
    Mr. Lang. I think it is hard to argue that the ability of 
the Islamic State to both mount attacks outside of its area of 
operation and to influence others to undertake those kind of 
operations does not decrease as they lose the territory they 
control in Iraq and Syria.
    So my sense of it is that, at least that part of the 
report, that particular section, may sort of overstate the case 
in terms of the significance of the kinds of military defeats 
that they are suffering inside of Iraq. That said, obviously, a 
tremendous amount of attention needs to be paid to other 
theaters in which ISIS is operating.
    I mean, we have seen engagement on what is happening in 
Libya. There are issues in Egypt and elsewhere. We have to be 
truly concerned about foreign fighters heading back to Tunisia. 
So there is a lot of work to be done.
    But I think it would be a mistake to underestimate the 
impact that robbing them of a capital of a caliphate in Iraq 
has had.
    Senator Gardner. Dr. Knights?
    Dr. Knights. So the war in Iraq and Syria has sucked in a 
number of combatants that might have otherwise been used on 
other theaters. But at the same time, it has also boosted 
global recruitment for the movement. So it has offset each 
other in a way.
    Now if we have Iraq shutting down perhaps as a very active 
theater for them, and something happening in Syria, you have 
people saying, when ISIS implodes in Iraq and Syria, it will 
explode internationally. Where will those people go? They will 
stay in the host nations, and they will activate there instead, 
maybe using less sophisticated means, whatever they have 
available.
    Senator Gardner. So, I mean, the report, it is pretty clear 
in their thinking that the efforts have not reduced the Islamic 
State's terrorism capability and global reach. I mean, why 
would RAND develop that--how did you reach a different 
conclusion than they have?
    Mr. Lang. I guess the only point, Senator, that I would 
emphasize here is, again, I think that their ability to recruit 
internationally and to inspire internationally is closely 
linked to their ability to control large swaths of territory 
and to project themselves as the caliphate inside of Iraq and 
Syria.
    Of course, we should never let down our guard about their 
ability to inspire and conduct these kinds of operations out of 
theater, including that they have shown a capacity to do that. 
I guess I would just wonder, over the long term, whether or not 
they are going to be able to maintain that capability if really 
we have sort of given the lie to the promise of the caliphate.
    Senator Gardner. Dr. Knights, in your testimony, you 
stated: ``We wake up to the nature of an urgent threat that has 
been allowed to grow unchecked. We make mistakes, then we do 
the right thing, but then we lose interest. The cycle starts 
again.''
    You talk about that in your statement. In your opinion, how 
can this administration avoid that same dangerous cycle that 
you described?
    Dr. Knights. So the first thing that you need to do is do 
not declare victory ever under any circumstances in any 
conflict, and that is especially true here.
    As I said, we do not want to create any kind of gap, any 
daylight at all between the mission we are currently 
undertaking and the next phase of the mission where we need to 
help Iraq stabilize liberated areas, build the security forces 
against both the ISIS threat and the Iranian-backed militia 
threat. If we create a sense that there is a gap between the 
two, that we are ending one thing and starting another, it 
makes it very difficult for the Iraqi Prime Minister to keep 
this relationship going.
    So that is why I recommend the continuation of Combined 
Joint Task Force Operation Inherent Resolve the way it 
currently is, to create no gap whatsoever. We do not create a 
gap like in 2008-2009, where we said to the Iraqis take it to 
your Parliament and get us an ironclad, written--if we try to 
do that again, it is all over. So that is one of the things we 
need to avoid.
    Senator Gardner. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman. I am going to 
continue in a similar line. I am interested in the political 
circumstance in Iraq, assuming success in Mosul, that would 
allow the United States to play the kind of role that you are 
suggesting.
    So Senator Johnson was asking you some questions along this 
line too, and we have had a lot of debates in this committee 
and in the Armed Services Committee about, at the end of 2011, 
did the U.S. bug out of Iraq or were we thrown out of Iraq? And 
there is a lot of back-and-forth about that. We do not really 
need to go into it.
    But the circumstance that we have to ask ourselves is, I do 
not think there is an appetite of anybody on this committee 
that we get to a point where, on the battlefield it is going 
pretty well, and then we stay as occupiers, or we stay against 
the will of the Iraqi Government.
    If we stay, we would define how we stay. I think it is only 
tenable that we stay with the Iraqi Government's support rather 
than against their wishes.
    So right at the end of Senator Johnson's questions, as he 
was running out of time, you started to talk about, 
politically, what is necessary for a Prime Minister, Abadi or a 
future Prime Minister, or a Parliament, to accept the role of 
the U.S.? Because we have been hearing kind of rumors from 
inside Iraq that say, after a big success in Mosul, then Iran 
will start really pushing Iraq, okay, you do not need the 
United States around anymore. They were useful to have here to 
beat ISIL back, but now that ISIL is on the run, you can throw 
the U.S. out again and let us, your next-door neighbor, be your 
friend.
    What, politically, needs to happen to provide space for the 
U.S. to have a post-Mosul role that is the right role for us to 
play?
    Dr. Knights. So it would be impossible for us to stay 
without the full support of the Iraqi Government, and we would 
never try to do that.
    I keep talking about this. I believe security cooperation 
is the key to our staying. In other words, demonstrating 
outstanding, unique value as an ally and a partner. That is 
what we do through our intelligence cooperation, through things 
like our embed with the Baghdad Operations Command, helping 
Baghdad to get aerostats with balloons with sensors up over the 
city again, helping them to get their vehicle scanning 
technology back up and running, helping them to develop a 
Baghdad security plan so that Baghdad is not being hit with a 
major mass casualty attack every 2 weeks or 1 week, eventually.
    This is of extraordinary value to the Iraqi Government, and 
they see the direct impact of our involvement. That is the kind 
of thing we need to do. And this only takes 20, 30, 40 
Americans to have this kind of impact.
    So that is what we need to do, I think, to help him keep us 
in the loop, in the operation.
    Also, the economic reform support, you know he was on the 
finance committee of the Iraqi Parliament, the economic 
committee, for many years. The economy is his thing. Anything 
we can do to help the Iraqi Prime Minister turn the economy 
around, and the electricity sector as well, which we are, is 
very valuable to him and to the country.
    Senator Kaine. Mr. Lang?
    Mr. Lang. Senator, I think the first thing that we can do 
is stop rhetoric like talking about taking the oil and 
executive orders that sort of pick out the Iraqis in a way that 
would suggest that we do not value their contribution to the 
fight.
    Second, Prime Minister Abadi, again, is in a very difficult 
position. He is straddling an intra-Shia political crisis 
inside Baghdad. And to the extent to which we can provide him 
with some deliverables and some quiet support, we do him 
favors. And we extend the ability for us to have a negotiating 
partner.
    Again, I think the extent to which we are seen and 
understood to be by, with, through, and behind the Iraqis in 
undertaking these types of operations, and not sort of adopting 
a wider sort of counterterrorism mandate where we have our own 
operators doing their own thing, that is going to be quite 
important for Prime Minister Abadi to be able to sell this 
going forward.
    Senator Kaine. I kind of, in my own mind, use the phrase 
``partner.'' You used ``partnership.`` Partner, not protector, 
and trying to kind of look at it that way.
    I know that Senator Corker asked you some questions before 
I came in about Kurdistan. While I agree with Senator Menendez 
that we do eventually need to have our State Department folks 
here, sometimes they are going to follow the party line. And 
one of the good things about the independent guys is they do 
not have to follow the party line, and sometimes there is some 
virtue in actually hearing from both. Down the road----
    Senator Menendez. Sometimes it is good to know what the 
party line is.
    Senator Kaine. I completely agree.
    But down the road, as I have been in the region and in 
Kurdistan, the dream or professed dream of Kurdish independence 
seems very strong, unlikely to die in the northern part of the 
country. Down the road, how does that affect the prospects for 
the future of Iraq, whether it is in 5 years or 10 years or 15, 
the Kurds pursue a path toward independence?
    Dr. Knights. It is in the U.S. interests, I think, to back 
whatever the Iraqi Government and the Kurds agree between 
themselves. We cannot want a united Iraq more than Iraq wants 
it itself. Our role should be to help the two sides come to an 
arrangement.
    We are an honest broker. We are trusted by both sides, or 
at least equally distrusted. And so we need to help them talk 
to each other about the disputed areas, about the oil, about 
confederalism, oil independence, or whatever model they choose, 
because when it comes down to it, it is in the strong U.S. 
interests to have two strong U.S. allies next to each other who 
are also allied with each other.
    And as you can imagine, when one country becomes two, there 
is very strong economic synergies between the two, naturally. 
That is the case between Iraq and Kurdistan, and it is 
happening under the surface right now.
    Senator Kaine. Great. Thank you very much.
    Thanks, Mr. Chair.
    The Chairman. Thank you, sir.
    Senator Coons?
    Senator Coons. I would like to thank you, Chairman Corker, 
Ranking Member Cardin, for convening this hearing.
    And my thanks to both witnesses today as we try to confront 
the path forward in Iraq against ISIS.
    As has been mentioned by several other Senators, President 
Trump has inherited a successful strategy that is moving 
forward. We have both Americans deployed in the field and a 
wide range of coalition partners, and they are currently making 
real progress in the battle to retake Mosul. But we have 
unresolved and important issues going forward.
    It is in our national interests to secure a positive, 
productive, long-term partnership with Iraq, and a strong 
bilateral relationship will allow Iraq to serve as an effective 
counterterrorism partner and, hopefully, a bulwark against 
Iranian influence in Iraq and the whole Middle East. Achieving 
that goal is going to require a responsive, whole-of-government 
response.
    I share the concern expressed by several others here that 
the suggested request from President Trump to cut tens of 
billions of dollars out of our diplomacy and development budget 
in order to fund an expansion in defense spending is unwise and 
ill-considered and may, in fact, lead to the wrong outcome.
    So let me turn, if I could, to a few questions about 
stabilizing Mosul after this military campaign, given the other 
questions that apparently have already been asked by members of 
the panel.
    Is it possible to stabilize Mosul if Shia militia are not 
just allowed to enter Mosul but to remain in Mosul? And do we 
have any options?
    Mr. Knights first, if I might, do we have any options to 
prevent the Shia militia from entering Mosul in the first 
place? I think in your written testimony, you referenced the 
very dark, but real possibility that they will turn into 
something more akin to Hezbollah, a long-term, malignant 
presence forward-projecting Iranian influence into Mosul and 
Iraq in the long term. What options do we have to prevent them 
from entering and then destabilizing Mosul, should they do so?
    Dr. Knights. So our problem is not in Mosul city itself or 
the immediate outskirts where the very, very small numbers of 
Shia population mean that it is going to be pretty much 
impossible for the Shia militias to maintain any kind of 
presence there, and they have not played a significant role so 
far in the urban combat operations.
    What they have done is create a major expeditionary base to 
the west of Mosul, Tal Afar airport, which we probably should 
have held onto back in 2014. And they now have an outpost right 
next to the Syrian border, which they are probably going to try 
to hang onto.
    They are also getting their claws into all sorts of micro-
minorities around the Mosul area, Shabaks and Yazidis and all 
sorts of others.
    Really, the Shia militia PMU threat is most active around 
Baghdad, Basra, the southern areas, the mainly Shia areas, and 
some of the mixed Sunni-Shia areas around Baghdad.
    The option really I think is to build up the Iraqi 
counterterrorism service and Iraqi army as a counterbalance to 
these militias, to help Iraq to develop a reserve system, which 
it could use to suck a lot of these elements into the formal 
security forces, and then slowly pick them apart and actually 
institutionalize them.
    We need Prime Minister Abadi or an Abadi-like figure to 
continue leading Iraq, bringing that kind of moderate politics 
at the center.
    And we need to build the security forces volume, I mean 
literal numbers of units, number of active brigades, because 
right now, they do not have enough to do Baghdad, to do Mosul, 
to do the borders, to control Basra where all the oil is. They 
need to build more forces.
    They do not have to be remarkably capable. They just need 
to be warm bodies in uniforms that can resist Shia militia 
infiltration or pressure.
    Senator Coons. Mr. Lang? And if you might also add sort of 
how do you view the critical safeguards--size, training, other 
institutionalized safeguards--that will prevent the security 
forces more broadly, as well as the Shia militia, from becoming 
a sectarian actor?
    Mr. Lang. A great deal of this has to do with the political 
leadership at the top of these institutions. So we have seen 
Prime Minister Abadi actually manage to get some of his 
appointments through in January, which was a hopeful sign.
    But one of the core focus that is going to need to be going 
forward, in terms of the leverage that we maintain with Prime 
Minister Abadi and with his government, is to ensure that the 
leadership of these institutions do not revert to the kind of 
sectarian policies that we saw under Prime Minister Maliki.
    Again, I think a strategy in which you are trying to build 
the capability of the counterterrorism service and other 
elements of the Iraqi army will be critical as a counterweight. 
The Iranians, for a series of different Popular Mobilization 
Fronts, they are not going to stop what they are doing, but we 
can balance that.
    So it is both a political piece at the top and then balance 
in terms of capability inside of the formal security 
structures.
    Senator Coons. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Markey?
    Senator Markey. Thank you, Mr. Chairman.
    Last June, Brent McGurk, the Special Envoy for the Global 
Coalition to Counter ISIS, testified before this committee. At 
that time, the military operation to clear ISIS from Fallujah 
was coming to a close.
    I told him that I was concerned that tactical military 
successes will not bring about the strategic defeat of ISIS 
unless accompanied by simultaneous political initiatives to 
bring divergent groups together and local governments willing 
and able to represent and protect all of the people who live in 
areas cleared by ISIS.
    While Mr. McGurk agreed that such efforts are essential, it 
is not clear that they have been made a real priority.
    On February 22nd, the Washington Post reported that, ``So 
far, the U.S.-backed campaign has focused on defeating ISIS 
militarily rather than addressing the reason so many of Iraq's 
minority Sunnis initially turned to the group.''
    Given President Trump's rhetoric and budget plans that 
would cut diplomacy and development assistance, I am even more 
concerned that political efforts will fall by the wayside.
    On January 31st, the Al-Monitor reported that Shia-
dominated popular mobilization units ``have established at 
least 10 offices in the past few months in areas that were 
thought to be cleared of ISIS by tactical military operations, 
including Fallujah and Ramadi.''
    And the New York Times and Washington Post have reported in 
the past 2 weeks that ISIS continues to threaten people in 
areas where post-clearing governance and security efforts 
appear insufficient, including Fallujah, Ramadi, and Tikrit.
    Now in your prepared testimony, each of you called for the 
U.S. to take specific measures to create viable political 
arrangements in Mosul after it has been cleared.
    And I believe you, Mr. Lang, believe there would be great 
value in a formal transition period, during which a high-level 
governing body, advised by a full-time U.S. senior diplomat 
empowered to broker disputes, would support and oversee local 
administration.
    So could you each briefly address what are the lessons from 
Fallujah, what are the lessons from Ramadi, what grade would 
you give what has already been taking place there in terms of 
ensuring that there is an inclusive, welcoming political 
environment for the Sunnis? Otherwise, we are just going to 
have a repetition syndrome where we reenact the past year after 
year, over and over again, in a never-ending cycle where there 
actually has never been a political solution to this problem 
that does not give a breeding ground for ISIS to return and 
repeat history.
    Mr. Lang?
    Mr. Lang. Senator, thank you for the question. There are a 
couple points that are interesting here. In my prepared remarks 
and sort of oral testimony, one of the things that I 
highlighted was the fact that you still have 3 million people 
displaced by the conflict. Many of these people, in fact, the 
vast majority of those who have been displaced, are displaced 
from areas that have been ``liberated'' quite some time ago. 
And this is highlighting the fact that many of the Sunni Arabs 
do not feel comfortable going back to these communities yet, 
where they are not able, because they have not been cleared of 
mines, or politically they feel insecure where there is the 
presence of PMF.
    So I think there is a great deal more work that needs to be 
done in a number of these areas.
    Senator Markey. Why has it not been done?
    Mr. Lang. To a certain extent, the actors and the resources 
that have been mobilized against the problem are insufficient. 
So the United Nations, again, is in charge of stabilization in 
the wake of the military operation. I actually worked with the 
U.N. at one point in Iraq, and so I think they have been doing 
great work inside of their capability. But the----
    Senator Markey. But not great work in general? ``Inside of 
their capability'' means that they are meeting expectations for 
what their capability is, which is not going to match the task. 
Is that correct?
    Mr. Lang. Senator, I think that we can probably bring more 
to bear on the problem.
    Senator Markey. What does ``more to bear'' mean? What do we 
need to do here? Because otherwise the political instability is 
a recurring cancer that just keeps coming back because you do 
not have the intervention. You do not have the treatment.
    So what is needed here, because it is just a preview of 
coming attractions otherwise in Mosul and other places in Iraq?
    Mr. Lang. I could not agree more. I would think some of the 
practical steps that we could take, for example, USAID's Office 
of Transition Initiatives could deploy onto the ground 
undertaking stabilization programs in many of these 
communities. They can get outside of the wire faster than the 
U.N. can, and they know the country well. They were operational 
there behind the U.S. military in many of these places during 
the last decade.
    There is a lot of money that has been raised for 
stabilization, about $2 billion, in a conference last summer. 
But that has not sort of trickled down into actual 
implementation.
    Senator Markey. Why not?
    Mr. Lang. It is a good question.
    Senator Markey. Who do you blame?
    Mr. Lang. My sense is that the donors, that we do not 
really have the mechanisms for implementation on the ground.
    Senator Markey. But who do you blame for not having--the 
donors put up the dough, and who is not implementing? Who is 
blocking the implementation?
    Mr. Lang. I am not sure it is a question of blocking 
implementation. But my sense is that we do not have the 
capacity yet. I am not sure the U.N. has the capacity to 
distribute all that assistance. And I think some of the donors 
have not made that money available, so I think it is a twin 
problem.
    Senator Markey. Okay. Well, again, desperate people do 
desperate things. If you have the aid there and you are helping 
them, then they are more likely to move in our direction. And 
if it is not there, then it just creates an environment where 
ISIS can return and say, see, we told you. You know, trust in 
the Shia, trust in this government, is just not a good idea.
    So I think that is a good lesson for us. And I know my time 
is up, Mr. Chairman.
    But I am taking your warnings very seriously, and we have 
to find a way of ensuring that the donors' money is collected 
and then it is distributed in a way that does deal with that 
underlying sense of isolation and fear, which they justifiably 
have, given what has happened in that country.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, sir.
    Senator Cardin?
    Senator Cardin. I just really wanted to thank our two 
witnesses. I find that there is more unity in their comments 
than division. And it really points out so many threads have to 
come together for Iraq to be a successful state and be able to 
maintain stability in representing all of the communities.
    You mentioned one of the critical points: the Kurds. We met 
with the Kurds. They are not going to give up their desire for 
independence. That is clear. They want an independent state.
    And, Dr. Knights, I agree completely with you. That is not 
our decision. The Iraqis and the Kurds have to reach a 
conclusion.
    But then when they get some autonomy or independence, how 
does that deal with the security of Iraq itself? And how does 
the Popular Mobilization Forces integrate into the Iraqi 
security forces in a way that the Sunni communities feel that 
they are protected and does not open up again the opportunities 
for extremist groups to see a security vacuum and, therefore, 
an ISIS or something similar to ISIS forms again? So it is so 
many complications.
    So, Mr. Chairman, I just point out that I look forward to 
getting a briefing in regards to Secretary Mattis' plan. And it 
is going to have to have a major role for the jurisdiction that 
comes under this committee. That is, how do you rebuild Iraq 
into a country that not only can provide the short-term 
stability to the communities but the long-term confidence of 
the communities that will allow the country to stay stable for 
the foreseeable future?
    And after we have had that material made available and 
briefings to this committee, I would be very interested in 
getting Mr. Lang and Dr. Knights' view in regard to how the 
Trump administration sizes up the continuing role for the 
United States and our coalition partners to a successful 
completion of Iraq.
    That would be, I think, helpful for us to have your 
expertise moving forward after we have been briefed on the 
Trump administration's strategy.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Again, I appreciate your comments.
    I do think, amongst the principles that are working through 
this, there is a strong acknowledgment of the State 
Department's role here. I know that the Secretary of State is 
very aware of that and has been far more involved in much of 
what has been happening than I think has been reported. I hope 
that what we will do very soon is have a full committee sit 
down with him.
    I just have to say, I think things from the standpoint of 
him strategically thinking about not only this issue but 
numbers of issues around the world are way further along than 
anybody might realize.
    So thank you both for being here today, providing valuable 
insights. As the ranking member mentioned, I hope we have you 
back again. We will try to make sure there are no security 
hitches the next time.
    And with that, if you would, there will be some additional 
questions. We are going to accept questions to the close of 
business Thursday. To the extent you can answer those fairly 
quickly, we would appreciate it.
    The Chairman. Thank you again for your testimony and for 
being here in service to our country.
    And with that, the committee is adjourned.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]

                                  [all]
</pre></body></html>
